<html>
<title> - THE LEADERSHIP OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





          THE LEADERSHIP OF THE NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS


                             SECOND SESSION

                               __________

                           DECEMBER 14, 2011

                               __________

                           Serial No. 112-152

                               __________

   Printed for the use of the Committees on Oversight and Government 
                                 Reform




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-051 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 14, 2011................................     1

                               WITNESSES

Mr. Gregory B. Jaczko, Chairman, Nuclear Regulatory Commission
    Oral Statement...............................................     7
    Written Statement............................................    10
Ms. Kristine L. Svinicki, Commissioner, Nuclear Regulatory 
  Commission
    Oral Statement...............................................    19
    Written Statement............................................    21
Mr. William D. Magwood IV, Commissioner, Nuclear Regulatory 
  Commission
    Oral Statement...............................................    23
    Written Statement............................................    25
Mr. William C. Ostendorff, Commissioner, Nuclear Regulatory 
  Commission
    Oral Statement...............................................    29
    Written Statement............................................    31
Mr. George Apostolakis, Commissioner, Nuclear Regulatory 
  Commission
    Oral Statement...............................................    33
    Written Statement............................................    35
Mr. William Borchardt
    Oral Statement...............................................    71
Mr. Stephen Burns
    Oral Statement...............................................    73

                                APPENDIX

The Honorable Elijah E. Cummings, a Member of Congress from the 
  State of Maryland, opening statement...........................    83
Davis-Besse Atomic Reactor: 20 MORE Years of Radioactive Russian 
  Roulette on the Great Lakes Shore?!............................    86
Regulatory Meltdown..............................................    96
Letters and Questions sent to Witnesses provided by Chairman 
  Darrell Issa...................................................   141

 
          THE LEADERSHIP OF THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                      WEDNESDAY, DECEMBER 14, 2011

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:01 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Platts, Jordan, Chaffetz, 
Walberg, Lankford, Buerkle, Labrador, DesJarlais, Gowdy, Ross, 
Guinta, Kelly, Cummings, Towns, Kucinich, Tierney, Cooper, 
Connolly, Davis, Welch, and Murphy.
    Staff Present: Ali Ahmad, Communications Advisor; Kurt 
Bardella, Senior Policy Advisor; Michael R. Bebeau, Assistant 
Clerk; Robert Borden, General Counsel; Will L. Boyington, Staff 
Assistant; Molly Boyl, Parliamentarian; Lawrence J. Brady, 
Staff Director; John Cuaderes, Deputy Staff Director; Adam P. 
Fromm, Director of Member Services and Committee Operations; 
Linda Good, Chief Clerk; Peter Haller, Senior Counsel; 
Christopher Hixon, Deputy Chief Counsel, Oversight; Justin 
LoFranco, Deputy Director of Digital Strategy; John Ohly, 
Professional Staff Member; Ashok M. Pinto, Deputy Chief 
Counsel, Investigations; Laura L. Rush, Deputy Chief Clerk; 
Jonathan J. Skladany, Counsel; Cheyenne Steel, Press Assistant; 
Rebecca Watkins, Press Secretary; Nadia A. Zahran, Staff 
Assistant; Erin Alexander, Fellow; Krista Boyd, Minority 
Counsel; Beverly Britton Fraser, Minority Counsel; Lisa Cody, 
Minority Investigator; Kevin Corbin, Minority Deputy Clerk; 
Ashley Etienne, Minority Director of Communications; Carla 
Hultberg, Minority Chief Clerk; Peter Kenny, Minority Counsel; 
Paul Kincaid, Minority Press Secretary; and Chris Knauer, 
Minority Senior Investigator.
    Chairman Issa. Good morning. The committee will come to 
order.
    The Oversight Committee exists to secure two fundamental 
principles: First, Americans have a right to know what they get 
from the money Washington takes from them and that it is well 
spent. And, second, Americans deserve an efficient, effective 
government that works for them.
    Our duty on the Oversight and Government Reform committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers, because taxpayers 
have a right to know what they get from their government. We 
will work tirelessly, in partnership with citizen watchdogs, to 
deliver the facts to the American people and bring genuine 
reform to the U.S. Government bureaucracy.
    Today we have a distinguished panel, and today we will hear 
from five commissioners in what I believe will be an 
extraordinary hearing, one in which an independent Commission 
that Americans rely on to ensure that we have safe and reliable 
nuclear power--and, particularly, safe nuclear power. It has 
become a concern to this committee that, in fact, the 
Commission is not operating in a way that can continue.
    I will not prejudge anyone's motives. I will not prejudge, 
here today, anyone's testimony. But I am deeply concerned. A 
Commission is not, in fact, an autocratic agency; it is not, in 
fact, the office of any one person. For a Commission to work 
successfully or any agency that has a board, whether it is the 
National Transportation Safety Board or a host of others that 
we rely on for safety particularly, it has to lead by 
consensus. Doing the basic arithmetic, this is a three-
Democrat, two-Republican Commission. If it were three and two 
the other way or any combination, it should work, and work by 
consensus.
    The history of this agency, of this Commission, has been 
generally to work by consensus or near-consensus. The committee 
will examine today whether, in fact, under current 
Commissioners and current structure, this Commission can get 
back to working on a consensus-like basis. Ultimately, all five 
of you are charged with the same level of responsibility and 
the same obligation to sound science and sound safety.
    On a personal note, I have two active reactors in my 
district. Like anyone who has nuclear power in their district, 
every day we ask, ``Is it safe?'' and we are answered, ``Yes.'' 
And every day we ask, ``Could it by safer and more reliable?'' 
We want that answer always to be increasingly ``Yes.''
    So as we hear from Members on the dais and then hear from 
our witnesses, I think you will hear that all of us have the 
same concern. One of the ranking members, Mr. Kucinich, has 
been actively involved in his nuclear power plant for many 
years. But whether you have nuclear power in your district or 
not, we all understand that if all our nuclear power plants 
went down in America, the lights would go out. There is not 
sufficient replacement power today or in the foreseeable future 
to live without the highly reliable baseload that comes from 
nuclear energy.
    So, as we hear from all of you, I intend to allow each of 
you to deliver your full opening statements and a reasonable 
amount of additional remarks if they are beyond what your 
opening statement is. I then intend to be very, very, very, 
very willing to hear you give a complete answer to any 
question. That is not to say that Members on the dais can go to 
4 minutes and 59 seconds and then somehow find a question, but 
I want to hear from each of you.
    This is not one in which anyone on the dais here today, to 
the best of my knowledge, has the capability of taking the 
seats you occupy. We have to rely on what we learn here today 
to know whether or not this Commission can operate at the level 
that is essential if we are going to have safe nuclear power in 
this country.
    And, with that, I recognize the ranking member for his 
opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    In March of this year, a massive earthquake and subsequent 
tsunami killed more than 20,000 people and devastated northern 
Japan. It caused catastrophic damage at four of the nuclear 
reactors at the Fukushima power station. This was the worst 
nuclear disaster since Chernobyl 25 years earlier. Our number-
one priority on this committee must be ensuring that we learn 
the lessons of the Fukushima disaster and take appropriate 
action to improve the safety of nuclear power plants in this 
country.
    Yesterday, the Union of Concerned Scientists issued a 
statement imploring our committee to focus today's hearing 
squarely on these safety issues. Dr. Lisbeth Gronlund, a 
physicist and co-director of global security program at UCS, 
urged the committee to focus on the safety issues facing the 
U.S. reactor fleet rather than on NRC's internal squabbling.
    And let me say this on behalf of the American people. I ask 
that you, Chairman Jaczko, and to the other Commissioners, I 
ask that you not allow your disagreements to become the enemy 
of the destiny of this great organization. I also ask that you 
not allow your squabbling to have the effect of being a weapon 
of mass distraction. That is so important.
    I strongly agree with the statements of Ms. Gronlund. The 
single most critical issue facing the NRC today is how it will 
respond to the Fukushima crisis. Five months ago, a task force 
of career NRC staff issued 12 recommendations intended to make 
U.S. nuclear power plants safer. In October, the staff 
prioritized eight of these recommendations. According to the 
staff, these recommendations have the greatest potential for 
safety improvement in the near term and should be started 
without delay.
    For example, one of the key problems in the Fukushima 
disaster was that the tsunami knocked out the station's backup 
power, causing temperatures to rise in four reactors and 
resulting in the substantial release of radiation. NRC staff 
has recommended that all existing and new reactors in the 
United States strengthen their capabilities to mitigate these 
types of blackouts. I look forward to hearing the views of all 
the Commissioners today on how we can implement this and other 
reforms as soon as possible.
    With respect to the allegations of mismanagement, let me 
say this. I agree that it is a serious matter when four 
Commissioners write a letter to the White House criticizing the 
chairman for creating a chilled work environment. These 
allegations should be taken seriously, which the White House 
has done. And I don't plan to be a referee; I believe that you 
should be able to work out these disputes among yourselves.
    Based on my review of this issue, however, I also believe 
that the current chairman has exhibited one of the strongest 
safety records of any previous NRC chairman. I would urge 
anybody interested in this issue to read the harrowing 
transcripts of the recordings from the emergency operations 
center stood up by the chairman to help the people of Japan and 
United States citizens in close proximity to the Fukushima 
danger zone. You will be impressed by the skill and courage of 
those who worked around the clock to prevent this disaster from 
becoming far worse. As a result, I am struggling to determine 
how much of this squabbling relates to personality conflicts 
and how much relates to a fundamental disagreement about the 
statutory structure of the Commission itself.
    The inspector general, after interviewing all five 
Commissioners and senior NRC staff, concluded that the chairman 
acted within his authority. The general counsel of the NRC 
agreed. After examining the chairman's actions relating to 
Fukushima, he wrote in an opinion that the chairman's actions 
fit within his authorities. Similarly, our committee's own 
investigation, which has included transcribed interviews of 15 
senior NRC staff and the review of thousands of documents, has 
uncovered no violations of law or instances in which the safety 
of U.S. nuclear facilities have been placed in jeopardy.
    The truth is that when Congress reorganized the NRC in 
1980, it created a structure with a very strong chairman. As 
President Carter said at the time, the experience of Three Mile 
Island demonstrated that the Commission as a whole cannot deal 
expeditiously with emergencies.
    Moreover, this is not the first time there has been 
conflict between the NRC chairman and the other Commissioners. 
A 1999 report by the inspector general described a very similar 
situation that found that the statutory structure of the NRC 
leads to tensions between the chairman and other Commissioners.
    Finally, the natural question is, where do we go from here? 
Based on the letters all five Commissioners have sent to the 
committee in preparation for today's hearing, I believe they 
are all willing to fulfill the fundamental mission of the NRC. 
I sincerely hope that we can use today's hearing as an 
opportunity to get beyond past differences and refocus our 
energies on the goal of nuclear safety.
    And I remind the Commissioners, when the hearing is over, 
when the lights are down and the cameras are out and the 
reporters are gone, you all still have to return to your 
workplace and work together to protect the safety of all 
Americans.
    And, with that, I yield back.
    Chairman Issa. I thank the gentleman.
    I now recognize the chairman of the Subcommittee on 
Regulatory Affairs, the gentleman from Ohio, Mr. Jordan, for 5 
minutes for an opening statement.
    Mr. Jordan. I thank the chairman, and I will be very brief.
    I just want to thank the chairman for having this important 
hearing today and remind the committee that this is in no way a 
partisan issue. This is about an important Commission who seems 
to be, based on some of the things we have said, not 
functioning the way we would want, maybe even use the term 
``dysfunctional.'' And I think it is important to hear from all 
of them, ask the appropriate questions and get to the bottom of 
this.
    This is a Commission charged with making sure nuclear power 
plants are safe, and that is an important task. That is all 
about good government, and this is the appropriate venue to 
have this discussion and this hearing.
    So I just want to thank the chairman and would yield back 
the balance of my time. I know the ranking member of our 
committee wants to make an opening statement, as well.
    Chairman Issa. I thank the gentleman.
    We now recognize the ranking member of that same 
subcommittee, the other gentleman from Ohio, Mr. Kucinich, for 
5 minutes.
    Mr. Kucinich. Thank you very much, Mr. Chairman, for 
calling this hearing.
    Safety is the issue. I take it personally. This affects my 
State and my area. In February 2001, the NRC began 
investigating an aging mechanism that often caused cracking in 
reactors. As a result of these findings in late September 2001, 
the NRC determined that the Davis-Besse plant was at risk and 
should shut down by December 31st, 2001.
    FirstEnergy, the owner the of Davis-Besse plant, which is 
in Port Clinton, Ohio, resisted the order, claiming that it 
could stay open without incident until March 2002. FirstEnergy 
argued that a shutdown would cause an unnecessary financial 
burden. Rather than following its own safety procedures and 
shutting down Davis-Besse, the NRC relented and allowed the 
plant to operate until February 2002.
    After the plant had been shut down, workers repairing one 
of the five cracked control rod nozzles discovered extensive 
damage to the reactor vessel head. The workers found a large 
corroded crater the size of a football in the reactor vessel 
head next to one of the nozzles. Only \3/16\ of an inch of 
steel remained intact at the bottom. That began to bulge and 
crack.
    The NRC later found that the plant might have been as close 
as 60 days from bursting. If it did, they would have had a 
major release of radio activity that would have jeopardized the 
immediate and long-term safety of millions of Americans, not to 
mention the single biggest source of freshwater in the world 
being jeopardized in the Great Lakes.
    The Government Accountability Office later weighed in on 
this, calling it, quote, ``the most serious safety issue 
confronting the Nation's commercial nuclear industry since 
Three Mile Island.'' The Department of Justice said that 
FirstEnergy admitted that they knowingly, quote, ``knowingly 
made false representations to the Nuclear Regulatory Commission 
in the course of attempting to persuade the NRC that its Davis-
Besse nuclear power station was safe to operate beyond December 
31st, 2001,'' unquote.
    FirstEnergy's insurance company became worried and 
commissioned an independent study to analyze the data from the 
incident. The study, which was released in April 2007, painted 
an even darker picture than the regulatory rebukes that came 
before it. The report found that the corrosion of the steel 
plate happened at a faster rate than was reported by 
FirstEnergy, bringing the reactor closer to a catastrophe 
incident than had previously been reported.
    Now, despite the finding of these three bodies, just a few 
weeks before that study was released FirstEnergy asked the NRC 
to remove the requirement for independent assessments of Davis-
Besse's operation. They asked for less oversight.
    The NRC's 2004 confirmatory order modifying license lists 
some of FirstEnergy's malfeasant policies and actions that led 
to the 2002 incident, providing more evidence that profits were 
prioritized over safety. It specifically lists the key reasons 
the leak was allowed to persist and grow. FirstEnergy's self-
policing mechanisms failed. Worse, FirstEnergy tried to 
convince the NRC the problems were solved, when in fact they 
were not.
    FirstEnergy continues to try to prioritize profits over 
safety. Since I don't have time here to cover in detail the 
full history of FirstEnergy's bad decisions, near-misses, and 
safety lapses, I ask unanimous consent to place into the record 
a document prepared by Beyond Nuclear which does that, Mr. 
Chairman.
    Chairman Issa. Without objection, so ordered.
    Mr. Kucinich. Several weeks ago, FirstEnergy had to shut 
down Davis-Besse to replace yet another reactor head because 
its design has flaws which creates leaking problems. In doing 
so, they found cracks in a building designed to protect the 
core from external missiles like planes, but also to prevent 
the release of radioactive air and steam in the event of a 
problem with the reactor. The latter scenario is what almost 
happened in 2001 at Davis-Besse and is exactly what happened at 
Fukushima when the containment buildings blew up from the steam 
buildup. A structurally compromised building affords less 
protection to protect the public.
    True to form, there were important differences between the 
story FirstEnergy told the public and the real story, which I 
only uncovered because of my own investigation and because of 
my staff. Specifically, FirstEnergy tried to convince the 
public that the cracks were only cosmetic in nature, were few 
in number, and were not widely distributed. None of the above 
was accurate. And yet, FirstEnergy was eager to restart Davis-
Besse, even though they will not know the cause of the cracking 
until February.
    We should be looking at this. The corporations that run 
nuclear power plants are fundamentally no different than the 
corporations that drove our economy off a cliff. They will cut 
corners to maintain or increase profits in the absence of 
sufficient incentives to act differently. They must be 
sufficiently and carefully regulated. The consequences of the 
failing to do so are unthinkable.
    I hope we will reflect on the NRC's position here and help 
to achieve a culture of independence, objectivity, and public 
interest over corporate interest, and that we will have 
complete dedication to safety.
    I thank the chair for calling this hearing and for your 
attention to this critical matter at this time.
    Chairman Issa. I thank the gentleman. And I look back 
fondly on the years we have worked on this issue together on 
the committee, with each of us at different times being a 
subcommittee chairman.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Chairman Issa. We now recognize our panel of witnesses.
    Mr. Gregory Jaczko is the chairman of the Nuclear 
Regulatory Commission. The chairman is, I think, a particle 
physicist, to be more accurate----
    Mr. Jaczko. Yes.
    Chairman Issa. --and an experienced policy advisor who has 
served on the Commission since 2005 and has served on both 
sides of the dome, both in the House and Senate, in the past.
    Commissioner Kristine--I am going to try this again--
Svinicki?
    Ms. Svinicki. Svinicki.
    Chairman Issa. Okay. And I grew up near Slavic Village, and 
I should be able to do these names better--is an experienced 
nuclear engineer, a policy advisor who came to the Commission 
in 2008.
    Commissioner William Magwood IV--Commissioner Magwood 
joined the Commission just in 2010. He previously served 7 
years as director of nuclear energy at the Department of 
Energy.
    Commissioner William Ostendorff--Commissioner Ostendorff 
came to the Commission last year after a distinguished career 
in the nuclear navy and much time also with the Department of 
Energy.
    And then, Commissioner George Apostolakis. Thank you for 
being understanding. The Commissioner is an expert in risk 
assessment and came to the Commission in 2010 after many years 
as a professor at MIT.
    Gentlemen and lady, pursuant to the rules of the committee, 
all witnesses here will be sworn. Would you please rise to take 
the oath and raise your right hands?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Let the record indicate all witnesses answered in the 
affirmative.
    Please be seated.
    As I said earlier, nobody on the dais here knows anything 
other than what we have heard. You are here today so we hear 
all of you. So I will ask you to try to come close to 5 
minutes. I am not going to gavel people if they are going 
through with their statements. And I am likely also going to be 
very generous in your response times so that we can fully hear 
from all of you here today.
    Chairman Jaczko, would you please go first?

                       WITNESS STATEMENTS

                 STATEMENT OF GREGORY B. JACZKO

    Mr. Jaczko. Well, thank you, Chairman Issa and Ranking 
Member Cummings and members of the committee.
    We have been asked to appear before you today to discuss 
the management and operations of the United States Nuclear 
Regulatory Commission.
    This year, 2011, has been an exceptionally challenging and 
productive year for the NRC. And, as usual, the NRC staff has 
done an outstanding job over the past year. And the agency once 
again scored among the top tier of Federal agencies in the 2011 
Best Places to Work in the Federal Government rankings, scoring 
number one in all four major indices.
    At the NRC, we anticipated that 2011 would be a busy year, 
but unexpected issues, most notably the Fukushima Daiichi 
accident and multiple natural disasters, including flooding in 
the Midwest in June, the earthquake on the east coast in 
August, and other serious threats, such as hurricanes and 
tornadoes, created additional pressures for the staff at NRC's 
headquarters and regional offices.
    In spite of those challenges, the staff and the Commission 
remained focused on our critical safety mission. During the 
past fiscal year, we have performed thousands of hours of 
inspections at nuclear power plants and materials sites, took 
hundreds of enforcements actions, reviewed more than 1,000 
licensing actions and tasks, and issued a number of new 
regulations. And we completed a very important final safety 
culture policy statement.
    The NRC has conducted a greater number of special 
inspections in the past year--21 to date--than at any point in 
recent memory. During the past year, we completed the safety 
and environmental reviews of the first two new reactor combined 
license applications and held mandatory hearings on both of 
these applications. And these were both historic actions by the 
Commission.
    We issued final safety evaluation reports for the AP1000 
and ESBWR design certifications and issued eight reactor 
license renewals. We also successfully completed two pilot 
applications for transition to our new risk-informed, 
performance-based approach to fire protection. And we held a 
meeting yesterday to talk about the progress that is being made 
on that issue.
    We issued three new uranium recovery licenses, authorized 
the restart of one uranium recovery facility, and issued the 
license for the AREVA Eagle Rock centrifuge enrichment facility 
to be built in Idaho. We also completed the orderly closeout of 
our Yucca Mountain activities and preserved the technical work 
in 3 technical reports, more than 40 other reports, and in 
videotaped staff interviews.
    We have also approved cybersecurity plans for all nuclear 
power plants, published approximately 30 new guidance 
documents, and hosted the first integrated regulatory review 
service mission to the United States. And that is an 
international, peer-reviewed mission that is done under the 
auspices of the International Atomic Energy Agency.
    Now, the Commission itself was also incredibly productive 
in 2011. My colleagues and I held 38 public Commission 
meetings, 10 closed meetings, and issued 92 staff requirements 
memoranda on substantive Commission voting matters. This was 30 
more substantive Commission decisions than we completed in 
fiscal year 2010. And in line with our commitment to 
transparency and openness, we noticed more than 1,030 public 
meetings and improved and expanded our public outreach. 
Construction of our new third headquarters building is also on 
schedule and on budget for opening in late 2012.
    And, of course, the NRC undertook tremendous efforts in 
response to the March 11th earthquake and tsunami in Japan and 
the nuclear emergency at Fukushima Daiichi. In addition to 
monitoring the crisis and providing on-the-ground support in 
Japan, the Commission established a task force to review the 
accident and make recommendations to the Commission for 
enhancing reactor safety. This task force reported back with a 
comprehensive set of 12 safety recommendations addressing a 
broad range of issues. These recommendations have undergone 
additional reviews by the NRC staff, our Advisory Committee on 
Reactor Safeguards, and we have benefited from the insights of 
a broad range of stakeholders. The Commission has directed the 
staff to begin immediately implementing, partially or fully, 
five of the safety recommendations from the task force and set 
goals of completing station blackout rulemaking within 24 to 30 
months and has encouraged completion of all actions within 5 
years.
    Chairman Issa, Ranking Member Cummings, and members of the 
committee, this concludes my formal testimony today, and I 
would be pleased to respond to questions you may have. Thank 
you.
    [Prepared statement of Mr. Jaczko follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Issa. Thank you, Chairman.
    Commissioner Svinicki? I will get it eventually.

               STATEMENT OF KRISTINE L. SVINICKI

    Ms. Svinicki. Thank you, Chairman Issa, Ranking Member 
Cummings, and members of the committee, for the opportunity to 
appear before you today.
    You have requested that members of this Commission address 
the topic of management and leadership issues at the NRC.
    I have been privileged to serve as a Commissioner of the 
NRC for over 3-1/2 years. During this time, the agency's 
approximately 4,000 technical, legal, and administrative staff 
members have impressed me with their professionalism and their 
unyielding commitment to the NRC's important missions of 
nuclear safety and nuclear security. Their efforts are led by a 
skilled group of senior executive service managers, most of 
whom have decades of experience, not just in Federal service 
but specifically at the NRC. I have confidence in the work they 
do and believe the Nation is well served by their constant 
vigilance on matters of nuclear safety and security.
    I appear before you today, however, to address topics 
related to the current functioning the Commission itself and 
the engagement between the Commission and the agency staff.
    I have served as a Commissioner with six other 
individuals--four currently serving and two whose service on 
the Commission has ended--and under the tenure of two different 
chairmen. Although some amount of tension is expected in any 
deliberative body, I believe the level of tension among the 
currently serving members of this Commission is impeding the 
collegial processes of the NRC and is obstructing the 
functioning of key processes between the Commission and the 
agency staff. These tensions are rooted in an interpretation of 
the NRC chairman's statutory authorities as well as his conduct 
toward his Commissioner colleagues and the NRC staff.
    Despite these problems, I believe it is likely that the 
Commission would have continued its tug of war over these 
issues, to the extent possible, out of the public spotlight. 
Events of the past few months, however, pushed the Commission 
beyond its tolerance for current circumstances and led us to 
communicate our concerns beyond the Commission.
    As a result of interpretations of the NRC chairman's 
authorities that grant the chairman the authority to decide 
which issues appropriately involve any of the Commission's 
statutory functions and to interpret for the agency staff the 
meaning of direction issuing from Commission decisions, the 
situation at the NRC has, in my view, become increasingly 
unworkable and threatens the viability of a functioning 
Commission structure.
    While the Reorganization Plan No. 1 of 1980 certain 
administrative responsibilities in the hands of the chairman, 
the legislative history makes clear that it was not intended to 
displace the ultimate authority of the full Commission over the 
affairs of the agency. The plan itself includes a provision 
that the Commission may decide by majority vote in any area of 
doubt whether any matter pertains to one of the Commission's 
statutory functions. In its deliberations on the plan, Congress 
also emphasized that the Commission shall have full access to 
all information within the agency, including that in existence 
and that which requires development by the staff. The chairman 
may not withhold or delay providing information requested by 
the Commission. In both of these critical areas, however, I do 
not believe that the processes under the current chairman 
satisfy the intent of the law.
    Over the past year and a half, the Commission has engaged 
in a protracted effort to resolve its disagreements over its 
respective roles and responsibilities through a comprehensive 
revision of its internal operating procedures. This effort 
proved ultimately unfruitful, however, in resolving the 
underlying disagreements.
    Exacerbating these longstanding disagreements are recent 
events of concern that have come to the Commission's attention. 
In October of this year, the chairman appeared at an annual 
retreat held by the agency's executive director for operations 
and senior agency staff. Within days of this event, a number of 
attendees from the retreat sought me out to express their 
strong reaction to the chairman's statements. They described 
the content of his remarks as an expression of contempt for the 
Commission. It was described to me that the chairman instructed 
those present to advance his agenda and that this must come at 
the price of having their own independent assessments and 
recommendations. The executive director for operations 
described it to me by saying, ``We were pretty much instructed 
to leave our brains at home.''
    Hearing of this event was a formative moment in leading me 
to conclude that the points of tension between the chairman and 
the Commission were no longer isolated to the Commission 
itself. Interference in the flow of information coming to the 
Commission was occurring to such a pervasive extent and was 
being conducted so brazenly that the Commission needed to take 
additional action.
    Another circumstance that I believe caused the Commission 
to bring these issues forward is the chairman's continued 
outbursts of abusive rage directed at subordinates within the 
agency staff. All members of the Commission, including me, have 
been on the receiving end of this conduct, which was also 
acknowledged by the NRC inspector general in his testimony 
before the House Energy and Commerce Committee's Subcommittee 
on Environment and the Economy earlier this year.
    These incidents appear to have grown more frequent, 
however, and I am now aware of this conduct being directed 
against staff at various levels in the agency. Some of these 
employees have spoken to me privately of the embarrassment and 
humiliation of being made to lose their composure in front of 
their colleagues or to be seen exiting the chairman's office in 
a state of obvious upset.
    I regret that we have come to this point, but our agency, 
one whose fundamental mission is to ensure the health, safety, 
and security of the American public, is premised on the 
variability of individuals to speak out. It is my hope that a 
positive lesson about the willingness to speak out will be 
drawn by not just the NRC staff listening to this hearing but 
by all those responsible for safety and security across our 
government.
    Thank you.
    [Prepared statement of Ms. Svinicki follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chairman Issa. Thank you.
    Commissioner Magwood? If you could pull the mic just a 
little closer. They are not very good from a distance. Thank 
you.

               STATEMENT OF WILLIAM D. MAGWOOD IV

    Mr. Magwood. Thank you, Chairman.
    Chairman Issa. Even better when they are turned on.
    Mr. Magwood. Yes.
    Chairman Issa, Ranking Member Cummings, and members of the 
committee, it is with considerable disappointment that I appear 
before you today to share my concerns regarding the management 
and leadership issues facing the Nuclear Regulatory Commission.
    I provided a written statement and ask that it be included 
in the record. So I will try and summarize my comments.
    Chairman Issa. Without objection, so ordered.
    Mr. Magwood. Let me begin by reassuring the public that the 
NRC staff has and continues to work diligently to carry out its 
responsibilities to protect the health, safety, and security of 
the American people. They are led by an excellent cadre of 
senior career managers who have done a fantastic job of 
insulating most of the staff from the serious problems that are 
the subject of this hearing.
    My colleagues and I have endured a rather distasteful and 
dishonest media campaign over the last week. We have seen a 
wide range of misleading and untrue reports about our 
motivations, our characters, and our commitment to safety. It 
is quite clear that this campaign is intended to divert the 
attention of Congress and the public from the very real 
concerns we have about the leadership of our agency. I do not 
intend to allow this tactic to succeed.
    However, one item I feel I must address concerns this 
Commission's commitment to safety. After 20 months of working 
with the people at this table, I can promise you that we all 
place the safety and security of the public we serve at the 
very top of our considerations. We do not always agree on how 
to achieve the goal of safety and we always do not view issues 
the same way, but I believe we are all equally committed to the 
same goal. To impugn the motivations of members of the 
Commission because of disagreements on strategy or approaches 
is irresponsible.
    Now, as I discuss the real concerns facing us, I feel my 
true role before you today is to give voice to the dedicated 
men and women who serve the NRC, many of whom have come to me 
to discuss their concerns.
    First, I am most concerned that the chairman has made a 
regular practice of interfering with the ability of the 
Commission to obtain information from the NRC staff. He has 
asserted the authority to decide what information is provided 
to the Commission, when it is provided, and, increasingly, what 
the information contains when it reaches the Commission. This 
behavior is contrary to both the letter and intent of the 
organization plan, and no Commissioner could confidently carry 
out his legal obligations under these conditions.
    In my written statement, I outline a specific example in 
which the chairman prevented the staff from providing the 
Commission a voting paper regarding our program for fire 
protection in nuclear power plants. He went as far as to send 
someone to break up a staff briefing being held for myself and 
another Commissioner. For the record, we did not allow the 
briefing to end.
    It has become routine for individual members of the staff 
to come to Commissioners to alert us about issues they believe 
require Commission attention but that staff can't get through 
the chairman. That the Commission has come to rely on the 
personal bravery of individuals on the staff to keep us 
informed is a very sad statement. But what worries me most is 
the fact that we don't know what we don't know.
    The second concern I raise is a growing cancer of a chilled 
work environment at the agency. As I outline in my written 
statement, I have observed the effects of this chilled 
environment firsthand, and I believe the situation is actually 
worse in recent months. And I think Commissioner Svinicki 
mentioned some of that.
    I would like to move on to my final concern, however, which 
I raised, concerning the chairman's abusive behavior toward the 
staff. To understand this matter, I spoke with three of the 
women who have had personal experience with the chairman's 
extreme behavior. These women remain very disturbed by these 
experiences. A common reflection they all shared with me was, 
``I didn't deserve this.'' One woman said she felt the chairman 
was actually irritated with someone else but took it out on 
her. Another told me she was angry at herself for being brought 
to tears in front of male colleagues. A third described how she 
couldn't stop shaking after the experience. She sat, talking 
through what had happened to her, with a supervisor until she 
could calm down enough to drive home.
    Senior female staff in an agency like the NRC are tough, 
smart women who have succeeded in a male-dominated environment. 
Enduring this type of abuse and being reduced to tears in front 
of colleagues and subordinates is a profoundly painful 
experience for them. The word one woman used was 
``humiliating.'' I must note that none of these women want to 
have their names used publicly. As another woman told me, ``It 
is embarrassing enough that I went through this. I don't want 
to be dragged through the mud before some congressional 
committee.''
    These are major concerns facing the agency today: blocking 
staff from providing information to the Commission, the 
creation of a chilled work environment, and the abuse of NRC 
staff. I do not believe that fear, intimidation, and 
humiliation are acceptable leadership tactics in any 
organization, least of all in the Nuclear Regulatory 
Commission.
    Thank you for your attention, and I stand ready to answer 
any of your questions.
    [Prepared statement of Mr. Magwood follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chairman Issa. I thank you.
    Commissioner?

               STATEMENT OF WILLIAM C. OSTENDORFF

    Mr. Ostendorff. Thank you, Chairman, Ranking Member 
Cummings, members of the committee, for the chance to be here 
before you today.
    I have served on this independent commission since April 
2010. During that time, I have come to better appreciate the 
reputation the NRC has historically enjoyed as a competent 
regulator and a leader in nuclear safety not only in the United 
States but also in the international community. The reputation 
can be attributed to the employees of the NRC, who have shown 
dedication to the safety mission and the NRC's organizational 
values of integrity, service, openness, commitment, 
cooperation, excellence, and respect.
    For decades, these values have served as a guide for the 
operations of the NRC staff as well as for the Commission. 
These values have also historically fostered an open and 
collaborative workplace that brings out the best regulatory and 
technical judgments of the NRC staff without undue influence or 
pressure.
    Unfortunately, we find ourselves today in an environment 
where those historical values have been compromised and the 
agency's reputation placed at great risk. Left uncorrected, 
this trend damages the ability of the NRC staff and the 
Commission to carry out its nuclear safety mission for this 
country.
    I have over 30 years of service to this country. As a 
Rickover-era nuclear-trained submarine officer, I served on six 
submarines, I commanded a nuclear attack submarine for 3 years, 
had subsequent command of an attack submarine squadron of eight 
submarines. I have been personally accountable to the United 
States Government--the White House, Department of Defense--for 
ensuring the safety of nuclear-powered warships. I take great 
pride in that service and in my own decision-making with 
respect to those principles that best ensure reactor safety.
    After retiring from the Navy in 2002, I worked upstairs in 
the House Armed Services Committee as a counsel with oversight 
responsibility for atomic energy activities at the Department 
of Energy. Subsequent to that, I spent 2 years as a senior 
official at the Department of Energy and now with the NRC.
    With significant experience in leadership positions dealing 
with nuclear oversight, whether it be nuclear weapons or 
nuclear power, I can honestly say to this committee that I have 
never seen an environment where the highest level of the 
organization does not reflect the values shared by the whole.
    Along with the three of my Commissioner colleagues who 
signed the letter of October 13th, who took the same oath to, 
quote, ``well and faithfully discharge the duties,'' unquote, 
of our office, I refused to be silent while damage was being 
done to the NRC's work environment.
    It is important to comment briefly on what I will label as 
an unprecedented action--the four of us writing a letter to the 
White House. That is the letter this committee received last 
Thursday evening.
    This letter is not about politics. It was signed by two 
Democratic and two Republican members of this Commission. I 
regret that that letter has been portrayed by many in Congress 
over the last 3 or 4 days as being politically motivated. I 
assure this committee, it is not. It is not Yucca Mountain, it 
is not about other policy disagreements. It is not about 
internal conflict between Commissioners, though that is one 
element of our concerns. With great respect for the White 
House, I must take strong exception to White House Chief of 
Staff Daley's letter from Monday night that I believe 
mischaracterized the situation of the Commission.
    What is this letter about? This letter is about management 
actions that have significantly eroded the prized open and 
collaborative working environment of the NRC, our Nation's 
nuclear safety agency. These actions have served to prevent the 
Commission from being fully informed of the NRC staff's views 
and recommendations.
    It is about behavior that if exhibited by one of our NRC's 
regulated licensees would be subject to investigation and 
potential enforcement action for a chilled work environment. It 
is about bullying and intimidating behavior toward NRC career 
staff that should not and cannot be tolerated.
    In light of our unanimous agreement that these actions 
cannot continue, the four of us fulfilled our oath of office 
and took what we viewed as appropriate action and wrote the 
White House. That letter clearly states our grave concerns.
    I appreciate this committee's oversight role and look 
forward to your questions.
    [Prepared statement of Mr. Ostendorff follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chairman Issa. Thank you.
    Commissioner?

                STATEMENT OF GEORGE APOSTOLAKIS

    Mr. Apostolakis. Chairman Issa, Ranking Member Cummings, 
and members of the committee, good morning.
    Management and operation of the Nuclear Regulatory 
Commission is an important subject. My perspective is grounded 
in my experience and observations as a member of the Commission 
since being sworn in on April 23, 2010, and my former role as a 
15-year member and chairman for 2 years of the Advisory 
Committee on Reactor Safeguards, a statutory committee of 
technical experts.
    Management and operation of the Commission are carried out 
within an overall structure of law and policy. The Commission's 
independent and multimember character, with staggered terms for 
its members, is designed to insulate regulatory decisions from 
political consideration and to provide stability for regulatory 
policy. Nuclear safety matters are technically complex. This 
Commission structure allows for a diversity of insights to be 
brought to bear in the Commission's decision-making.
    Under Reorganization Plan No. 1 of 1980, the Commission as 
a whole formulates policy and regulations, issues orders, and 
conducts adjudication. Policy formulation includes major 
administrative decisions with policy implications. The 
Commission has ultimate authority to determine by a majority 
vote in an area of doubt whether any matter, action, question, 
or area of inquiry pertains to one of these functions. The 
Senate Committee on Governmental Affairs, in reporting on the 
reorganization plan, declared that, quote, ``The committee also 
intends the Commission to exercise the authority to interpret 
the plan,'' end quote.
    The legislative history of the plan and the Presidential 
messages to Congress in submitting the plan emphasize that the 
chairman is subject to the policies of the Commission and the 
oversight authority of the Commission. As principal executive 
officer of the Commission, the chairman has the ultimate 
responsibility to the Commission and the public for the proper 
day-to-day management and administration of the agency. 
However, the chairman is statutorily responsible to the 
Commission for assuring that the executive director of 
operations and the staff are responsive to the requirements of 
the Commission in the performance of its functions.
    The 1980 reorganization plan also provides that the heads 
of the offices of the general counsel, the Secretary of the 
Commission, and the Advisory Committee on Reactor Safeguards 
shall continue to report directly to the Commission.
    The chairman and the executive director, through the 
chairman, are responsible for ensuring that the Commission is 
fully and currently informed about matters within the 
Commission's functions. The reporting relationship of the 
executive director to the chairman is not intended to interfere 
with the ability of the EDO to make independent recommendations 
on matters that the Commission has delegated to him. While the 
chairman has special responsibility for policy planning and 
development for the Commission, the Commission could not 
function in any satisfactory way if the executive director or 
other senior managers were required to misrepresent or suppress 
their views or analyses.
    The Commission is well served by its dedicated staff, with 
many senior managers who bring long experience and advanced 
technical expertise. Their technical evaluations essential to 
informed Commission decision-making. The transmission of 
adequate information and unbiased perspectives to the 
Commission for its decision-making and oversight is essential 
to the agency's mission of protecting public health and safety.
    I joined my fellow Commissioners to formally express our 
serious concerns regarding the chairman's leadership. I regret 
that partisan or other ill motives have been ascribed to the 
action that we have taken. This could not be further from the 
truth.
    Thank you very much.
    [Prepared statement of Mr. Apostolakis follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chairman Issa. Thank you.
    I would like to thank all of you for staying well under the 
5 minutes. And, again, all of your full written statements are, 
by committee rule, going to be in the record.
    I will recognize myself for 5 minutes.
    Chairman, who is your board of directors? For the people 
out there in, sort of--you know, they don't know government 
necessarily, what is the equivalent of your board of directors? 
Who do you report to?
    Mr. Jaczko. Well, I would say it is--I am responsible, as 
the chairman of the Commission, to carrying out the policies 
that the Commission as a whole----
    Chairman Issa. Well, no, I appreciate that, but are you the 
CEO, in your opinion?
    Mr. Jaczko. I believe the statute describes the chairman as 
a principal executive. So that would probably be the closest--
--
    Chairman Issa. So you view yourself as the chief executive 
officer----
    Mr. Jaczko. Right.
    Chairman Issa. --the chairman. Who is your board of 
directors?
    Mr. Jaczko. I would say it is probably a combination of the 
Commission but the Congress, as well, I think serves a role in 
its oversight capacity to oversee the operation----
    Chairman Issa. Do these gentlemen and lady sitting next to 
you, are they your board?
    Mr. Jaczko. I think, yeah, that is certainly one way to 
characterize the Commission as a structure that way, that they 
are responsible for establishing the policies of the agency, as 
I am a member of that as well.
    Chairman Issa. Right, but if one of these four other 
members asks for a vote on something and four of them vote that 
what you are doing is wrong, do you consider that to be 
persuasive, interesting, or obligatory?
    Mr. Jaczko. Well, certainly, if the Commission takes an 
action--and we have formal procedures to carry on our actions--
then, of course, those are actions that I would follow.
    Chairman Issa. So, if they ask to vote, not to be locked 
out of getting information, as has been alleged under oath 
here, would you consider that that was your responsibility, to 
ensure that they had full access to information and never again 
were in any way denied any information that you had?
    Mr. Jaczko. Yeah, I believe the Commission has provided a 
tremendous amount of information----
    Chairman Issa. No, no, no. Chairman, we are real funny 
about this here; we want the answer exactly to the question we 
asked.
    Is it true that any information that you had has ever been 
withheld from any of these people on your request?
    Mr. Jaczko. Not that I am aware of.
    Chairman Issa. So you have never asked to have any 
information--so, basically, one of the Commissioners just lied 
under oath is what you are saying.
    Mr. Jaczko. Well, I work every day to ensure that the 
Commission has the information it needs to carry out its 
responsibilities----
    Chairman Issa. No, no, no, not what it needs. If I 
understand the statute, they have full and unfettered, just as 
you do, rights to everything because they determine, as I 
understand it, as any Commission would--and we produce 
commissions here all the time--they have to have everything or 
at least everything they think they have. And what they don't 
know they have a right to ask and know whether they really need 
to know it. Isn't that true?
    Mr. Jaczko. Absolutely. And the Commission routinely asks 
for information, and that information is provided.
    Chairman Issa. Okay. Well, obviously, they disagree with 
you a little bit.
    You have a background--you are a physicist, not in nuclear 
but in interesting stuff that I don't know anything about, so I 
will just figure you are smarter than me on anything related to 
the science. But have you ever run an organization of 4,000 
people?
    Mr. Jaczko. No. This is the first time that I have done 
that.
    Chairman Issa. What is the largest organization in which 
you were the CEO of in your career?
    Mr. Jaczko. Well, I was responsible for managing my 
personal staff as a Commissioner, and prior to that I served in 
policy capacities.
    Chairman Issa. So, half a dozen or something like that.
    Mr. Jaczko. Yeah.
    Chairman Issa. Okay.
    Commissioner Ostendorff, as a Navy captain, how many people 
worked for you?
    Mr. Ostendorff. Chairman, I had several different jobs in 
the Navy. As a commanding officer of a submarine, I had 150 
people; as the commanding officer of a nuclear attack submarine 
squadron, 1,200. As principal deputy administrator at NSA, I 
was a chief operating officer for 2,500 personnel who were Feds 
and 32,000 people who were management and operating 
contractors.
    Chairman Issa. And from your leadership training over 30 
years, from your years in the Navy, an autocratic organization, 
an organization in which you can go to jail for not obeying the 
lawful order of the ship's captain, you have said, signing on 
with the other Commissioners, that this chairman has exceeded 
any semblance of the kind of authority that you believe he 
should have in his conduct; that he has had conduct, if I 
understand correctly, that does--and I know there is some 
debate about this--that does endanger safety because it is 
conduct that is demoralizing to an organization that, in fact, 
if my nuclear power plants in my district, if they had somebody 
like Chairman Jaczko is alleged to be, you would shut down that 
site. You would view them as dysfunctional enough to be unsafe.
    Isn't that true?
    Mr. Ostendorff. I would say, Chairman, that I think, if I 
understand your question correctly, that I do not believe that 
we have been kept fully informed of our staff's views, their 
technical analysis, their recommendations on more than one 
issue here in the last few months that directly could impact 
how we proceed with respect to the Fukushima reactor accident.
    Chairman Issa. And I would ask unanimous consent for 30 
more seconds to have Commissioner Magwood, who I think talked 
on the same subject, if he has anything to say.
    Mr. Magwood. No, I think I would just simply add that there 
are clearly cases where my office has asked for information and 
been told we couldn't have it. And it is just very black and 
white to me.
    Chairman Issa. So the chairman was less than truthful in 
saying that he has provided you information you requested 
always.
    Mr. Magwood. Well, I don't want to sit here and say that 
someone is not telling the truth. I just simply will tell what 
you my experience has been.
    Chairman Issa. Thank you.
    The gentleman from Maryland, the ranking member, is 
recognized for 5 minutes--or, actually, make that 6, please.
    Mr. Cummings. Thanks.
    Commissioner Svinicki, first of all, I want to thank you 
for--I want to thank all of you for your testimony.
    You know, I am just sitting here and I am just wondering 
what is going to happen after you go back. You know, we have 
no--we are not experts up here on, you know, dysfunction. The 
country, at 80 percent, says the Congress isn't functioning 
very well at all. So I don't want to sit here and tell you how 
to conduct your business.
    But I am concerned about some of the statements that have 
been made, particularly, Chairman Jaczko, with women feeling 
intimidated. That alarms me, as the father of two daughters. It 
does concern me.
    I want you to address that, please.
    Mr. Jaczko. Well, I----
    Mr. Cummings. And how do you feel about that? Is it true? I 
mean, do you think that is true?
    Mr. Jaczko. I am very passionate about safety, and all the 
things that I do at the agency are directed toward doing what I 
think is the right thing for safety.
    I--when I heard the incident--about the incident that I 
believe Commissioner Svinicki is referring to, I tried to think 
through all the many meetings we had together where we had had 
very good discussions, sometimes disagreements about policy 
issues, and I believe there is one meeting that she may have 
been referring to. As I recall the meeting, I went to her 
office to speak with her about a letter, I believe it was. At a 
certain point, we were discussing it, and she became concerned. 
And I--as I recall, I simply motioned, I said, just sit down, 
let's just calm down and let's just work through it. We 
continued to discuss it, and then at some point I left.
    Mr. Cummings. Is this a situation, when you all go back--I 
mean, you have apologized, have you not?
    Mr. Jaczko. Certainly, if any--many of these instances, I--
this is the first time I have heard many of these accusations. 
And, certainly, if there has ever been a time when I have made 
someone feel uncomfortable, I always like to know so that I can 
take whatever action is necessary to remedy that.
    Mr. Cummings. Yeah.
    Commissioner Svinicki, you testified before the Senate 
Committee on Environment and Public Works that you were never 
told that the chairman was operating under his emergency 
authority until the NRC Office of Congressional Affairs 
informed the Senate.
    Do you remember exactly when that was? And how far after 
the earthquake and the tsunami did you find out? 
    Ms. Svinicki. I--I don't recall the specific time period.
    If I recall the question that was posed before the Senate 
committee, I think it was, was I informed that the chairman had 
invoked his emergency authorities under Section 3(a), so it was 
a very specific question about invocation of a provision of 
law. And I indicated that I learned of that when the Office of 
Congressional Affairs responded to a committee request.
    I don't recall how many months after the Fukushima event 
that was, sir.
    Mr. Cummings. Well, our committee staff conducted a 
transcribed interview with the NRC general counsel, who took a 
different view, and this is what he said. He said, ``I have 
heard testimony that they were not informed that the chairman 
was exercising his emergency power. However, the Commissioners 
all were informed that the operations center had gone into this 
monitoring mode soon after the Fukushima earthquake--and, 
actually, the beginning concerns for the reactors--Fukushima 
reactors that had occurred. That Saturday, March 12th, I sat in 
on a conference call in which the chairman told each of the 
Commissioners--I believe each one of them was on the conference 
call--was explaining what was going on with respect to the 
reactor.''
    Commissioner, were you on that call?
    Ms. Svinicki. I was, sir. And if I may say that the general 
counsel's response indicated that we were informed the agency 
was in the monitoring mode. The difference or the 
misunderstanding is that, in my view, that does not correlate 
directly to invocation of emergency authorities. The agency 
going into the monitoring mode does not necessarily invoke 
those emergency authorities under law.
    Mr. Cummings. And it seems fairly obvious that if the 
Commission was operating an emergency operations center, the 
Commission was responding to an emergency. That is not--do you 
disagree with that?
    Ms. Svinicki. The agency has numerous times gone into the 
monitoring mode where the chairman of the agency has not 
invoked the emergency authorities. So I do not correlate being 
notified of being in the monitoring mode as an immediate 
invocation of those authorities, sir.
    Mr. Cummings. Okay. But you are--but there was an emergency 
operation; is that right? I know that I am----
    Ms. Svinicki. Yes. And other than the term being the same, 
again--and I apologize if my answer is complicated--it is 
simply that the agency going into a monitoring mode does not 
necessarily correlate or immediately invoke those emergency 
authorities.
    Mr. Cummings. So is your main objection that you did not 
receive some sort of a paper stating explicitly, ``Oh, by the 
way, we are having an emergency''? Is that a fair statement?
    Ms. Svinicki. The significance to me of the invocation of 
the emergency authorities is that, under the reorganization 
plan, at that point the chairman has taken the authorities of 
the Commission as a whole, and then in an emergency he is able 
to exercise singularly the authorities of the Commission as a 
body. So I do see a distinction.
    Mr. Cummings. Well, perhaps, Chairman Jaczko, could you 
clear that up? When did you inform them that we were operating 
under the emergency provisions?
    Mr. Jaczko. Well, the first action was very early on on 
March 11th at about 9:43 in the morning. I believe one of my 
staff members indicated to their staff that we were entering 
monitoring mode. About 20 minutes later, a formal agency email 
went out.
    I then, later that evening--and this is all on the first 
day, March 11th--sent an email to my colleagues informing them 
that we were in monitoring mode and talked about our response 
and what we were doing to the accident.
    From that point on, we had meetings at least three times a 
day, where their staff were briefed by members of the 
operations center about our activities and our status. I held, 
approximately once a day and starting on March 12th, briefing 
phone calls with them to describe our actions and indicate what 
we were doing as an agency to respond to the emergency.
    Mr. Cummings. I see my time has expired. Thank you.
    Chairman Issa. I thank the gentleman.
    We will now go to the chairman of the subcommittee, Mr. 
Jordan, for 5 minutes.
    Mr. Jordan. I thank the chairman.
    Let me start with Mr. Ostendorff. On October 13th, you all 
sent a letter to the White House chief of staff. That seems 
pretty unprecedented to me, that you would have two Democrats, 
two Republicans on a commission send a letter to the chief of 
staff of the White House about the activities of the chairman 
of this Commission.
    Do you know if there are any other examples of that 
happening, other commissions where the same kind of action was 
taken, a letter sent to the White House chief of staff? 
    Mr. Ostendorff. Mr. Jordan, I agree it is an unprecedented 
action. I am not aware of any other similar situation.
    Mr. Jordan. So you guys knew that this was something that 
had not been done before, this was pretty unprecedented.
    Mr. Ostendorff. I think the four of us were not aware of 
any circumstance in which a similar action was taken by 
independent regulatory commission members.
    Mr. Jordan. And my guess is you had several discussions 
amongst the four of you about taking this unprecedented action. 
Can you elaborate on that? Was there a time frame where over a 
period of months, maybe even longer, where weeks or months or 
longer you talked about taking this unprecedented action?
    Mr. Ostendorff. We've had significant concerns for a number 
of months, and this was the committee's report that's in our 
letter to the White House concern on withdrawal of the SECY 
paper back in July, associated with staff recommendations on 
how the Fukushima report should be evaluated and prioritized by 
our staff.
    That paper was withdrawn by the chairman. It caused 
significant concern among the four of us. We discussed our 
concerns with the chairman. We saw attempts to remove the 
executive director for operations, the EDO, which is a 
significant personnel step to remove the senior career person 
in the agency.
    Mr. Jordan. Yes.
    Mr. Ostendorff. We saw the October 5 meeting that 
Commissioner Svinicki referred to where the chairman made 
statements to senior executives in our agency that appeared to 
undermine the commission. That was the crossing line for, at 
least from my own standpoint, and I think my colleagues, and I 
asked them agreed and that was what----
    Mr. Jordan. Safe to say, well thought out, over a period of 
time, discussed thoroughly, and you said that the situation 
warrants us taking this unprecedented action?
    Mr. Ostendorff. We had seen that our attempts to talk to 
the chairman about our concerns on various matters had not 
yielded any difference in behavior or actions on his part. We 
felt that as a commission, we had an obligation to the United 
States to do this.
    Mr. Jordan. And can I go down the line, Commissioner, with 
each of you? Would you agree with the assessment given by Mr. 
Ostendorff?
    Ms. Svinicki. Yes, sir, I would. And I would add that we 
had engaged, as I said, in protracted efforts to attempt, 
through our own procedures, to try to resolve some of these 
issues that had not borne any fruit.
    Mr. Jordan. Commissioner Magwood, accurate?
    Mr. Magwood. Yes, very accurate.
    Mr. Jordan. And Commissioner Apostolakis?
    Mr. Apostolakis. Yes, it is accurate.
    Mr. Jordan. And, Mr. Ostendorff, we have a chart here in 
our material of the five Commissioners, the professional staff, 
this chart here was, I'm guessing, maybe 30 different folks 
here, and obviously you can't testify for them, but is it fair 
to say that the staff that's on this page had real concerns 
about the leadership style of Mr. Jaczko? This was part of your 
assessment and the evaluation before you sent the 
correspondence, the letter to the chief of staff?
    Mr. Ostendorff. Mr. Jordan, I can tell that you that prior 
to signing the letter, I think, I will speak for myself, but I 
think my other three colleagues would say the same thing, that 
we had significant feedback from the senior career leadership 
of the agency expressing great concerns on there being a 
chilled environment, a lack of open and collaborative work 
environment in their interface with the chairman.
    Mr. Jordan. Okay, and just one question for you and the 
same question of the other Commissioners.
    You stated in your testimony that it bothers you that some 
are alleging that the action that the four of you have taken 
are somehow politically motivated. I think it's certainly a 
stretch in the fact that it's two Democrats to a Republican, 
but I want to ask, do you think the actions of the chairman 
have been politically motivated, his style of leadership, what 
he is doing, do you think those are politically driven?
    Mr. Ostendorff. That's a difficult question, Mr. Jordan. I 
personally can't tell that you I think his actions are 
politically motivated. I have no evidence that they are. I will 
just tell that you we have seen significant issues under his 
leadership and management that we think are unacceptable.
    Mr. Jordan. Commissioner Svinicki, I'm sorry. I think I did 
a better job on the name than the chairman, but I'm sure I got 
it wrong. Go ahead.
    Ms. Svinicki. I will not testify to political motivations 
of Chairman Jaczko. I would describe my motivation in signing 
that letter was more on the basic conduct issues.
    Mr. Jordan. Okay, okay, fair enough. Mr. Magwood.
    Mr. Magwood. I think I would answer the question the same 
way and would not describe political motivations.
    Mr. Jordan. Okay.
    Mr. Apostolakis. My motivation was not political.
    Mr. Jordan. I understand that. Do you think the chairman's 
was.
    Mr. Apostolakis. I have no evidence that it was. I think 
it's more his interpretation of his role as a chairman that was 
driving his actions.
    Mr. Jordan. Thank you. Thank you, Mr. Chairman.
    Chairman Issa. Thank you. We now recognize the ranking 
member of the subcommittee, Mr. Kucinich, for 5 minutes.
    Mr. Kucinich. Thank you very much, Mr. Chairman, members of 
the committee, I want to quote from an article on Politico 
today on their front page. It says, ``Behind closed doors, they 
snipe at each other. In public, they question each other's 
motives. And in front of Congress they hang each other out to 
dry.''
    That's life on the Federal Election Commission, not the 
NRC, but the FEC.
    I would imagine that if we called up one Commission after 
another in front of this Congress, you'd probably have some 
complaints that may not be dissimilar than what we have here. 
The difference is, though, that 104 nuclear power plants in 
various stages of relicensing, some of which have some 
questions related to safety, post-Fukushima 7 months ago, March 
11, 2011, or May 11, 2011. I'm, frankly, you know, wondering 
why you're here. I appreciate the chairman calling the hearing, 
this is all very interesting.
    Mr. Jordan. Will the gentleman yield?
    Mr. Kucinich. I would certainly yield.
    Mr. Jordan. Well, I would just make one point that I made 
in my remarks, the one big difference is, I'm sure you have 
some of those actions taking place inside the FEC, but no 
Commission has taken the unprecedented action of having four 
members sign a letter and send it to the White House chief of 
staff. That's the difference and that's why the chairman has 
called this hearing.
    Mr. Kucinich. Well, you know, I thank the chairman for 
calling the hearing and I thank my friend for pointing that 
out. But I also think that it's important for us to look beyond 
what we see and consider that, you know, we have an industry 
that's in trouble. Wall Street won't invest in nuclear power. 
The nuclear industry came to this government and looked for a 
$60 billion-plus loan guarantee. The industry's in trouble.
    So the Commissioners are going to reflect what's going on 
in the industry. I mean, I would expect that's what's happening 
here, and that's why we need to look deeper into what we're 
hearing about the NRC and ask what's going on with the 
industry, what do the titans of the industry have to say about 
the chairman?
    Now, Mr. Jaczko, an Associated Press story reported that 
you were worried that the U.S. nuclear plant operators may have 
become complacent following the disaster in Japan. And 
according to a press account, you said that recent instances of 
human error and other problems have threatened the safety of 
some of the Nation's nuclear facilities. It was reported, for 
example, that incidents at nuclear plants in Ohio and Nebraska, 
``almost led to workers getting very, very significant doses'' 
of radiation.
    The article also reports that in addition to these events, 
three other plants were shut down for safety reasons. This 
apparently marks the first time in more than a decade that 
several plants in the U.S. have been shut down at the same 
time.
    Can you elaborate, Mr. Chairman, on some of these specific 
events that have occurred recently and which ones trouble you 
the most and why?
    Mr. Jaczko. Well, Congressman, the events in particular 
with the potential worker exposures were, in my mind, very 
significant events because they appear to indicate a lack of 
adherence to procedures. And after I made those comments, I 
heard from industry officials, and while they may have not 
necessarily agreed with my assessment of complacency, they did 
acknowledge that there is a change in the workforce right now 
in the nuclear industry, there is new workers, and we are 
seeing some of these incidents in which the new workers may not 
have a full appreciation of the procedures and the need for 
adherence to certain processes that ultimately ensure safety.
    So it's an important signal. It's not clear yet that we're 
seeing a true decline in safety, but it's an important signal 
that we need to make sure we keep a close eye on as the year 
goes on and as we continue our oversight of these plants.
    Mr. Kucinich. Is safety your top concern?
    Mr. Jaczko. Safety has been my number one priority since I 
came to the Commission.
    Mr. Kucinich. And after Fukushima, what went on in your 
mind about safety and nuclear power plants in this country?
    Mr. Jaczko. Well, first and foremost, I was proud of the 
staff at the NRC, that we have worked very hard for a long time 
to be focused on safety, but that accident, I think, really 
reminded us that there is no way to rule out accidents, there 
is no way to prevent, ultimately, all kinds of serious 
incidents, so we have to be even more vigilant and dedicated to 
safety than we've ever been.
    Mr. Kucinich. Thank you, Mr. Chairman. My time has expired. 
I ask unanimous consent to place in the record a staff report 
called Regulatory Meltdown.
    Chairman Issa. Whose staff report?
    Mr. Kucinich. A staff report by Mr. Markey.
    Chairman Issa. I'll reserve, but only for a very short 
period of time, because it is another committee's report.
    Mr. Kucinich. Well, I would appreciate your----
    Chairman Issa. It will only take a couple of minutes for 
staff to review it.
    Mr. Kucinich. Thank you.
    Chairman Issa. We recognize the gentleman from Utah, a 
State that gives us uranium, for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Chairman Jaczko, you are undoubtedly aware of the letter 
that was sent to the White House to the Chief of Staff dated 
October 13, 2011. There's five very serious charges in there. 
Number one, intimidating and bullying senior career staff. True 
or false?
    Mr. Jaczko. I have not bullied and intimidated career 
staff.
    Mr. Chaffetz. True or false, ordered staff to withhold 
their modified policy information and recommendations intended 
for transmission to the Commission?
    Mr. Jaczko. There is one occasion which I discussed with a 
very senior manager, a recommendation that he wanted to make on 
an issue.
    Mr. Chaffetz. So only one time in the history of your time 
there?
    Mr. Jaczko. Correct. And I have----
    Mr. Chaffetz. Next one, true or false, attempted to 
intimidate the Advisory Committee on Reactor Safeguards, a 
legislative--anyway, it goes on, true or false?
    Mr. Jaczko. False.
    Mr. Chaffetz. True or false, ignored the will of the 
majority of the Commission contrary to the statutory functions 
of the Commission?
    Mr. Jaczko. I have never ignored the will of the Commission 
in an area that is a commission----
    Mr. Chaffetz. I will take that as a false. True or false, 
interacted with us, his fellow Commissioners, with such 
intemperance and disrespect that the Commission no longer 
functions as effectively as it should?
    Mr. Jaczko. Well, I'm--I'm a very passionate person about 
safety. And I often engage my colleagues in discussions about 
safety. And that's been my style and my practice.
    Mr. Chaffetz. So, in other words, in other words, they're 
all wrong, and you're exactly right.
    Mr. Jaczko. I've listened very carefully to the concerns of 
my colleagues.
    Mr. Chaffetz. And you've done nothing wrong?
    Mr. Jaczko. I have listened very carefully to the concerns 
of my colleagues, and I'm certainly very interested in 
continuing the dialogue with them to better understand how we 
are not communicating effectively.
    And, in fact, as I believe Mr.----
    Mr. Chaffetz. Let me continue, my time is short and I 
appreciate that, but it doesn't seem like any sort of 
repentance or concern for this.
    Now, are you telling me that the--there was an Office of 
the Inspector General did a report dated June 6, 2011, page 44, 
and I'm extracting a quote out of it a portion of a sentence, 
``He strategically provided three of the four Commissioners 
with varying amounts of information.''
    Would you disagree with that?
    Mr. Jaczko. Well, the Inspector General found ultimately 
that my actions were consistent with the law, they were 
consistent with Commission policy.
    Mr. Chaffetz. But do you agree or disagree with the 
Inspector General, who is an independent person, who came in 
and looked at this and said you gave people varying amounts of 
information?
    Mr. Jaczko. I disagree with that assessment.
    Mr. Chaffetz. Mr. Chairman, I've got to tell you, and to my 
colleagues on the other side, we talk about the safety, the 
security of this Nation, the importance of the nuclear 
situation in this country, this should be bipartisan. The 
Commission is bipartisan. We've got people who are suffering 
under this gentleman right here. He is not living up to the 
duties.
    I don't believe you. I think the safety and security of 
this Nation is too important. I think you should resign. I 
believe in these Commissioners, and God bless you for the job 
that you're doing and for stepping up and telling it like it 
is.
    Mr. Tierney. Will the gentleman yield?
    Mr. Chaffetz. I will not, I will not. It is too important 
to get this right. I find it very hard to believe that the 
distinguished careers of two Democrats, two Republicans, the 
host of staff that stands behind it and an the Inspector 
General that goes out and looks at this, and you're telling me, 
they're all wrong and you're right. That, to me, is a lack of 
leadership, and I hope--I hope that there's some sort of 
change, and if you're going to do the right thing for your 
country and for this Commission, you should step down. I yield 
back.
    Mr. Tierney. Will about the gentleman yield?
    Chairman Issa. Will the gentleman yield?
    Mr. Chaffetz. Yes.
    Chairman Issa. I recognize that there could be disagreement 
on this, but I do have the basic question for you: In light of 
this accusation, do you believe, chairman, that you need to 
make changes in your management and style and how you deal with 
your Commissioners and how you keep them informed?
    Mr. Jaczko. Well, certainly, I'm very interested in 
improving the communication among the five of us.
    Chairman Issa. And if you had to do it again, would you 
have invoked emergency powers without consultation with this 
Commission?
    Mr. Jaczko. All the actions that I took in regard to the 50 
mile, or the Japan response in general, I'm very comfortable 
with.
    Chairman Issa. Okay, so you're comfortable with an event on 
the other side of the world, taking away these people's rights 
to have full and complete access and a vote, you're comfortable 
doing that without consultation even though, in fact, it was no 
direct threat to the United States, and they were available? 
You're comfortable with not consulting with them?
    Mr. Jaczko. The----
    Chairman Issa. Okay, that says it all.
    Mr. Tierney. Will the gentleman yield?
    Chairman Issa. Actually the time has expired.
    Mr. Tierney. Isn't that interesting?
    Chairman Issa. The time has expired. No, no. Did you finish 
answering? No, no, no, no, I didn't cut him off. If you have 
further to answer you are welcome.
    Mr. Jaczko. I wasn't sure if you were asking me a question 
or if you wanted a response.
    Chairman Issa. Well, I asked you if you were comfortable, 
on the gentleman's time, I asked you if were comfortable with 
not consulting, and you said you were comfortable with not 
consulting. You were comfortable with what you did when, in 
fact, it was pretty extraordinary and it was an event on the 
other side of the world and these lady and gentlemen were 
available, and yet they didn't even seem to know that their 
powers had been usurped so that you could run the show even 
though none--you're not a nuclear engineer and several of these 
people are.
    So are you still comfortable with that?
    Mr. Jaczko. Well, I am very comfortable with the actions 
that we took as an agency, and I did provide tremendous amounts 
of information to my colleagues, including personally briefing 
them about the status of our response and the issues that we 
were looking at. Their staff was fully aware in multiple 
briefings that they were provided, sometimes up to four times a 
day, on all of the issues that we were looking at. And, again, 
when we're in an emergency situation like this, the authorities 
are transferred to the chairman in order to assure effective 
and timely decisionmaking. And the events in Japan, I think, 
demonstrated that that was the appropriate way to respond.
    Chairman Issa. I now recognize the gentleman from 
Massachusetts for 5 minutes.
    Mr. Tierney. Thank you. And just a comment to my colleague 
from Utah who, we generally get along pretty well. When there's 
a minute and 28 seconds left on the clock and somebody has 
asked you to yield and you deny the yield but give it to 
somebody in your own party, it doesn't really speak to 
bipartisanship approach on a hearing like this.
    And I was going to ask you whether or not you totally 
disregard the Inspector General's findings and wish us to. 
Since there was going to be a bipartisan hearing, then I would 
think we would put some weight on the Inspector General's 
report and conclusions, which are contrary to your 
recommendations
    Mr. Chaffetz. Will the gentleman yield? Will the gentleman 
yield?
    Mr. Tierney. Yes, I will yield.
    Mr. Chaffetz. The chairman said he disagreed with the 
Inspector General, the Inspector General was wrong.
    Mr. Tierney. I think, I would reclaim my time, and I note 
that he disagreed with him on one quote of that report but 
agreed with him quite fully on the conclusions of the final 
report itself.
    But from what I am reading in statute on this section 3, it 
says, notwithstanding sections 1 and 2 of this reorganization 
plan, there are hereby transferred to the chairman all the 
functions vested in the Commission pertaining to an emergency 
concerning a particular facility or materials licensed or 
regulated by the Commission, including the functions of 
declaring, responding, issuing orders, determining specific 
policies, advising the civil authorities and the public, 
directing and coordinating actions relative to such emergency 
incident.
    Chairman Issa. Would the gentleman yield?
    Mr. Tierney. At the end I will if I have time.
    In 1980, Congress enacted legislation on this and said the 
chairman will be the official spokesman of the Commission. 
There are hereby transferred to the chairman all those 
functions that I read. To the maximum extent possible under the 
emergency conditions, the chairman or other member of the 
Commission delegated authority under the subsection B shall 
inform the Commission of actions taken relative to the 
emergency, and following the conclusion of the emergency the 
chairman or a member of the Commission delegated to the 
emergency functions shall render a complete and timely report.
    Mr. Chairman, did you do those things that the statute set 
out?
    Mr. Jaczko. I did and I believe I did much more.
    Mr. Tierney. Okay. Now I am concerned that what's probably 
going on in large part here is a disagreement in the 
interpretation of what powers the chairman has under the 
statute. That seems to be the underlying fact here, and that's 
not a new disagreement.
    I go all the way back to a 1999 report, a 1998 report on 
this ambiguity regarding the chairman's role and the 
Commissioners' role continues. And it goes on in that basis. It 
lays a less than harmonious interaction. It seems that members 
of the Commission always think they have more responsibility, 
chair people, particularly new ones always think they have an 
enlarged role, and that policy resides with the full Commission 
and management resides with the chairman. It seems to me the 
same thing's going on here.
    I look at a report done by our colleague over on the Energy 
and Commerce Committee, Mr. Markey, and I'm troubled, I'm 
troubled by the fact that his conclusion in that report draws 
some very concerning points. He says that after reviewing all 
of the records that he asked for, voting records, reports, 
emails, correspondence, memoranda, phone or meeting minutes or 
other materials related to the events at Fukushima or the NRC's 
response to it, he says that four NRC Commissioners attempted 
to delay or otherwise impede the creation of the NRC near-term 
task force on Fukushima.
    He says that four NRC Commissioners conspired with each 
other and with senior NRC staff to delay the release of and 
alter the NRC near-term task force report on Fukushima. He says 
that the other NRC Commissioners attempted to slow down, or 
otherwise impede the adoption of the safety recommendations 
made by the NRC near-term task force on Fukushima.
    He says the NRC chairman, Greg Jaczko, kept the other four 
NRC Commissioners fully informed regarding the Japanese 
Emergency Commissioners, despite claims to the contrary made by 
these commissioners. He said that a review of emails and other 
documents indicates high levels of suspicion and hostility 
directed at the chairman.
    He said the consideration of Fukushima safety upgrades is 
not the only safety-related issue that the other NRC 
Commissioners have opposed. That concerns me. It concerns me 
when four members have findings like this by another member on 
his committee with his staff, and we come in here and sort of 
bear up on one, it seems to we've got a problem with everybody 
here. You know, people have to work together in some respect. 
It is unprecedented that a Commission would send a letter to 
the White House chief of staff. I'm not sure it's a good 
precedent to set as opposed to trying to work things out.
    Mr. Chairman, do any of those six items that I just read, 
do they seem to you to be accurate?
    Mr. Jaczko. Well, it has been challenging, I think, to move 
forward on some of the task force recommendations. And again, I 
wouldn't want to assign motives or any other ill intention to 
my colleagues, but I think we have had some challenges.
    Mr. Tierney. Did you feel that the things, that there was 
an attempt to slow down the release of that report on 
Fukushima?
    Mr. Jaczko. There was definitely an attempt to prevent the 
release of the report.
    Mr. Tierney. So do you think it was an attempt to make 
things more transparent and to provide to the public and 
Congress information that was important for them to have?
    Mr. Jaczko. There was certainly a disagreement on the 
Commission about providing it, transparently, to the public. In 
the end, the majority of the Commission wound up providing the 
report, but there was a lot of internal disagreement about that 
on the Commission.
    Mr. Tierney. I yield to the chairman.
    Chairman Issa. Now, your time--the time is expired, you 
didn't give me any, and I understand how important your 
questioning was.
    With that, we go to the gentleman from Oklahoma.
    Mr. Lankford. Thank you, Mr. Chairman. Well, thanks for 
being here. And as others have mentioned before, Mr. Cummings, 
this is a tough spot to be able to come to be able to talk 
about trying to work out functioning conversations, because we 
have a tough time within Congress ourselves.
    The issue still remains though, the day-to-day operation of 
nuclear safety, and the decisions that you make are significant 
in this. And I want you to know we appreciate the work that you 
do from day to day, keeping us safe, but this has got to be 
worked out, as you know well. And it is an unprecedented action 
to say this could affect safety long term if we don't work this 
out, and so thanks for coming forward on it, thanks for working 
together and let's try to resolve this.
    With that, Mr. Magwood, let me ask you a question, you made 
a statement that safety is the top concern. Some of your 
nuclear background, and just a brief statement on it. I have 
your bio but make a brief statement about your nuclear 
background.
    Mr. Magwood. Well, most of my nuclear background is in 
government. I worked at the Department of Energy for 11 years 
as a political appointee. I was in charge of the nuclear 
infrastructure associated with the civilian nuclear technology 
program, which includes the Idaho National Laboratory and, I 
guess 2,500-odd contractors. I was responsible for overseeing 
the management of reactor operations----
    Mr. Lankford. Okay. In any of those operations, any of 
those environments, I assume you've got very competent people 
around you that are all well-studied, all well-researched and 
you have disagreements on things. Has something like this 
occurred in other groups that you've worked with in other 
places to say we have four or five colleagues, we disagree and 
it breaks out in something like this? So have you seen 
something like this in the past?
    Mr. Magwood. No, I have not seen that.
    Mr. Lankford. My concern is this is not just a disagreement 
on colleagues that are all competent on the issue. My concern 
is this becomes a management conversation to say how are things 
led by one individual or another, and how do we come to 
conclusions because, Mr. Jaczko, I appreciate your statement 
saying you're passionate about safety and that all of these 
arguments and these disagreements and lack of communication 
breaks down to the fact that you're passionate about safety, 
but that definitely alludes to the fact that you're more 
passionate about safety than everyone else is, and so it just 
becomes more heated to you or more significant.
    And my concern is, is there an impression in your mind that 
you're more competent and more passionate about safety than the 
other Commissioners?
    Mr. Jaczko. Well, Congressman, I'm committed to safety.
    Mr. Lankford. Are you more competent and more passionate 
about safety in these areas than the other Commissioners?
    Mr. Jaczko. That's certainly not a judgment that I would 
make, but I am passionate about safety.
    Mr. Lankford. That's more so than the others around you, so 
there's five of you, and you look at and you know the meetings 
that you are in, and you look at them and you say, well, 
they're not--they're a little more, they lean in other 
directions besides safety, but I'm more passionate about 
safety. Is that your concern?
    Mr. Jaczko. I would leave it to others to judge the 
various----
    Mr. Lankford. I'm asking your opinion because it affects 
your management style.
    Mr. Jaczko. I treat all of my colleagues as equal members 
and equal----
    Mr. Lankford. Do you consider yourself more passionate 
about safety than your colleagues, yes or no?
    Mr. Jaczko. I'm not sure how I would describe more or less 
passionate, but I am passionate about safety and I think that's 
the best I can tell you.
    Mr. Lankford. That's a nice safe answer. I'm just asking a 
direct question because it affects--the reason I say that is, 
is because if in the back of your mind you're thinking if this 
is really going to be done right, I'm going to have to do it, 
because they're not as passionate as I am, because I'm am 
trying to figure out why some people get some information and 
some people don't, and why recommendations come from staff, and 
they get filtered through to try to determine what gets out to 
different people.
    Because if you have in the back of your mind, I'm concerned 
for our nuclear safety, so I need to make sure our filter, what 
gets to them, because it may not be right, I just wanted to 
know, because that does affect your own record.
    So yes or no, are you more passionate about safety than 
others, or do you have a concern that some other Commissioner 
is not as passionate about safety as you are?
    Mr. Jaczko. Well, I--in regard to the information coming to 
the Commission, I think that's the basis for your question, the 
Commission gets policy matters that come to the Commission for 
voting, information is provided as part of those, and I am 
rarely, if ever, involved in the provision of that information.
    Mr. Lankford. Let me ask you a quick question separate from 
that and there's also a concern, there's a statement that's 
been made that you reportedly at one moment said about the two 
different other Democrat appointees that we Democrats have to 
stick together on a vote. Was that a statement that you've 
made?
    Mr. Jaczko. I don't recall making that statement.
    Mr. Lankford. Okay. My time has expired.
    Chairman Issa. Would the gentleman yield?
    Mr. Lankford. Yes, I would.
    Chairman Issa. Do you have sourcing for that statement?
    Mr. Lankford. My time has expired on that one. I would be 
glad to be able to take it----
    Chairman Issa. Okay. If you would provide it, I would 
appreciate it.
    Chairman, a piece of administrative business for a moment. 
The gentleman from Ohio has asked to have an individual 
Member's report from Ed Markey placed in the record. I have no 
objections. I do have a request that goes with it.
    In reviewing it, you delivered to an individual Member, to 
Ed Markey, one of your former employers, you delivered him 
unredacted information and additional information beyond what 
this committee received through our request.
    Would you pledge today to deliver us in the same unredacted 
form everything, I repeat, everything that was responsive to 
Mr. Markey?
    Mr. Jaczko. Absolutely. And, Mr. Chairman, I think, as you 
know, we've provided a large number of documents to your staff.
    Chairman Issa. I appreciate that, but discovering that he 
received documents less redacted than we did, as an individual 
Member, and produced a report, I have no problem with this 
being placed in the record. But in order to make the record 
complete, we would need to have the same information, which we 
do not have today, and, quite frankly, we expect, normally, 
that what is redacted is redacted for good and proper reasons, 
and there should be no difference whatsoever unless, in fact, a 
committee demands unredaction, not an individual Member.
    So if you agree to that, I withdraw my reserve and we now 
recognize----
    Mr. Kucinich. I want to thank the chair for including that 
in the record, and I agree with him that we should be able to 
receive this additional information.
    Chairman Issa. I think members on both sides would like to 
see it. Yes, Mr. Chairman.
    Mr. Jaczko. I would just note that I can only speak for the 
documents that were in my possession. Some of those other 
documents may have been provided by other members of the 
Commission, so I am certainly not aware of any documents that 
were redacted any differently. But, again, I can only speak for 
those that are in mine.
    Chairman Issa. Well, and the good news is that one thing I 
know about the executive branch is you guys authenticate very 
carefully what you give to people. So I'm sure we won't have a 
problem in getting the same information. And sometimes people 
interpret what somebody wants differently than somebody else. 
In this case, we want everything that Mr. Markey wanted for the 
same reason of doing our job.
    With that, we recognize the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, and I want to say it 
is quite a spectacle to have five members of the Commission 
arguing about management style before a committee of Congress. 
That, in and of itself, in some ways, erodes confidence and the 
function of the Commission.
    One does not know who did what to whom and how important it 
is. The suggestion, obviously, by having a hearing of such 
prominence has the potential effect of undermining that 
confidence and obviously the chairman of the Commission is the 
target.
    I regret that because I think we are at risk, perhaps, of 
trivializing your mission. The real conversation that ought to 
be taking place here may be less about management style, 
although that can be important, and more about mission and how 
well or poorly historically the NRC has carried out that 
mission; its cozy relationship with industry; its ability to 
cogently take lessons learned from tragedies such as Fukushima; 
its ability to reassure the public of safety and safety 
standards at nuclear power plants; and its ability to show 
demonstrable clear independence from the industry it regulates.
    It is just as viable to posit that what's going on here is 
that we have a chairman who takes the mission seriously as it 
is to say we have a chairman who bullies his fellow 
Commissioners in a voice. I don't know what the truth is, but I 
do think this hearing ought to get at it.
    Chairman Jaczko, do you see a philosophical difference 
between yourself and your fellow Commissioners with respect to 
the mission of the NRC and how to go about it?
    Mr. Jaczko. Well, but we do have different approaches to 
what we believe is safe and how we define safety. I think 
that's clear in the different votes that we cast and the 
positions that we take as Commissioners.
    Mr. Connolly. Well, specifically, hone in on Fukushima. You 
answered a question about Fukushima just a little while ago to 
one of my colleagues and you confirmed that, in fact, there was 
an attempt by four fellow Commissioners to perhaps bury some of 
the findings of that study and/or to aggressively look at 
lessons learned from the single worst nuclear disaster in world 
history.
    Mr. Jaczko. We did have a disagreement----
    Mr. Connolly. You did?
    Mr. Jaczko. --on the release of----
    Mr. Connolly. You did; is that what you said?
    Mr. Jaczko. That's correct.
    Mr. Connolly. Okay, go ahead.
    Mr. Jaczko. About the release of the report and whether or 
not it should be reviewed by the Commission prior to ever being 
released publicly.
    Mr. Connolly. What was the nature of that dispute?
    Mr. Jaczko. Well, it was simply, I believed the report, 
once it was completed, should be made publicly available and so 
the public could see what the views of----
    Mr. Connolly. Your Commissioners disagreed with that?
    Mr. Jaczko. There were some who did disagree and wanted the 
report to be reviewed, and perhaps, acted on by the Commission 
and changed before it was released publicly.
    Mr. Connolly. On August 23, we had a major earthquake here 
in the east coast, surprised everybody, including in my home 
State of Virginia. We had a close call at the North Anna 
nuclear power plant as a result of that earthquake, which did 
generally cosmetic, some minor structural damage up and down 
the east coast. But it was a reminder that nuclear power can be 
vulnerable to seismic activity.
    That plant was deemed as exceeding its design basis. Could 
you explain what that means to us, Chairman Jaczko, and what 
was the nature of the concern at the time after the August 23 
earthquake?
    Mr. Jaczko. Well, when plants are originally built and 
designed, they pick out the characteristics of an earthquake, 
and they build all of the structures in the plant to be able to 
withstand that type of an event. And the earthquake, in fact, 
was bigger than the earthquake that was hypothesized in the 
original design of the facility, so there were some shaking of 
the building that was larger than what originally in the--in 
the original analysis for the plant.
    Mr. Connolly. Potentially compromising safety?
    Mr. Jaczko. Certainly it had the potential to compromise 
safety.
    Mr. Connolly. Were there other power plants in the east 
coast that were similarly affected or could have been?
    Mr. Jaczko. We didn't see any that were directly impacted 
because that plant was very close to the center of the 
earthquake. But it was certainly possible that other plants 
could have experience effects from the earthquake.
    Mr. Connolly. Post August 23 earthquake, what action did 
the NRC take and was the Commission in agreement, or also in 
disagreement about those actions?
    Mr. Jaczko. The Commission now, or the agency really, 
reviewed the safety of the facility. Ultimately it was a staff 
decision to determine whether or not the facility should 
restart, and I was very clear with the staff that they needed 
to do what they felt was appropriate for safety and, in fact, 
the Commission held an information briefing because there was 
interest among my colleagues in hearing and understanding what 
we were doing, and I think it was a very productive meeting and 
a very strong show, I think, of the Commission working and 
functioning as a body.
    Mr. Connolly. Consensually.
    Mr. Jaczko. Yes.
    Mr. Connolly. My time has expired. I hope we get a chance 
to explore that some more. Thank you, Mr. Chairman.
    Mr. Gowdy. [presiding.] I thank the gentleman. I will now 
recognize myself for 5 minutes of questioning.
    I'm going to ask the non-chairman Commissioners a series of 
what I hope are quick questions and expectation hopefully of 
quick answer.
    Ms. Svinicki, is the chairman's behavior affecting your 
ability to discharge the duties for which you took an oath to 
discharge?
    Ms. Svinicki. To this point, I believe that I have had 
access to what I need to faithfully execute my duties. However, 
I'm concerned that we're at the point where that is being 
compromised.
    Mr. Gowdy. Have you lost confidence in his ability to lead?
    Ms. Svinicki. Yes, on the basis of his interpersonal 
conduct, I have.
    Mr. Gowdy. Commissioner Magwood, same two questions to you, 
do you believe his behavior is impacting your ability to do 
your job, and have you lost confidence in his ability to lead?
    Mr. Magwood. It's a very complicated question. It's hard to 
answer yes or no. Let me answer it this way. I think that--I'm 
sorry--I think that over the time I have been a Commissioner, I 
have been able to get information that gives me enough 
confidence to make votes and to make decisions.
    There have been times when getting the information has been 
more difficult than I think it should have been. My biggest 
concern is there are always, is the chance that there's some 
piece of information I just didn't even know existed that never 
got to me.
    So as far as I know, I have had the ability to make 
decisions, fully informed. I have questions, I have doubts, and 
I have concerns.
    Mr. Gowdy. Commissioner Ostendorff?
    Mr. Ostendorff. My concerns with respect to the chairman's 
style have been primarily that his interface with our NRC staff 
has been abrasive, he uses the term ``passionate.'' I'd say it 
has prevented staff from feeling comfortable they can bring 
forth their best views and recommendations to the Commission. 
From that standpoint, I think it's a grave concern.
    Mr. Gowdy. Have you lost confidence in his ability to lead?
    Mr. Ostendorff. At this stage, I have, yes.
    Mr. Gowdy. Commissioner Apostolakis?
    Mr. Apostolakis. So far, my votes could mean--have not been 
affected adversely by any actions by the chairman. In fact, in 
the letter to the chief of staff, we said that there may, there 
may be some harm in the future if this continues.
    I believe if the chairman lets the staff send us their true 
views when various issues come before the Commission, and if he 
also controls his temper a little bit, he can continue to lead 
the Commission.
    Mr. Gowdy. Chairman, there was an apology issued, I don't 
whether you drafted it or the White House drafted it. Who 
drafted your apology?
    Mr. Jaczko. I prepared a letter that I sent to Mr. Daley. 
I'm not sure if that's the letter you are referring to.
    Mr. Gowdy. Have you apologized more than once?
    Mr. Jaczko. I have indicated to Mr. Daley in that letter 
that I was sorry for the distraction that this has caused.
    Mr. Gowdy. Is that the only thing you're sorry for is the 
distraction? Do you admit any of the conduct that's been 
alleged this morning?
    Mr. Jaczko. If--again, many of these accusations I'm 
hearing for the first time.
    Mr. Gowdy. Well, that doesn't impact whether they're true 
or not. The fact that you haven't heard them yet doesn't mean 
they're not true. My question is simple, are they true?
    Mr. Jaczko. I don't believe that they are true.
    Mr. Gowdy. What does that mean, I don't believe that they 
are true? Have you been verbally abusive to female staff.
    Mr. Jaczko. No, I have not.
    Mr. Gowdy. Have you withheld information from your fellow 
Commissioners?
    Mr. Jaczko. I have not.
    Mr. Gowdy. Have you asked anyone are they on your team?
    Mr. Jaczko. I have never said something like that.
    Mr. Gowdy. Chairman, let me tell you what it looks likes 
from my vantage point, which my background is not in nuclear 
science. When you have four eyewitnesses that testify to 
something under oath, you know what they call the defendant 
after that? An inmate. Four eyewitnesses to the conduct.
    It is unprecedented to me to have colleagues criticize one 
another privately. To do it publicly and to have to sit on 
either side of you to do it before a committee of Congress to 
me is unprecedented.
    None of the allegations they have made are accurate. Is 
that your testimony?
    Mr. Jaczko. I believe that on many of these instances that 
they are referring to have been misconstrued. And as I have 
indicated, that there are issues where I think we can improve 
our communication.
    Mr. Gowdy. Well, what did you apologize for?
    Mr. Jaczko. I apologize, as I indicated, for the 
distractions this caused.
    Mr. Gowdy. For their misunderstanding? Did you apologize 
because they misunderstood what you did?
    Mr. Jaczko. I have offered to my colleagues that we sit 
down with a third party, someone that we all could agree on to 
talk about these issues.
    Mr. Gowdy. We really need a counselor for the Nuclear 
Regulatory Commission? We need a counselor for that?
    Mr. Jaczko. I'm very interested in improving the 
communication because I think it's vital.
    Mr. Gowdy. Does it matter to you that the four of them 
either have or are either rapidly losing confidence in your 
leadership? Does that matter to you?
    Mr. Jaczko. That's very important to me, and it's something 
that I am very interested in working on.
    Mr. Gowdy. But you deny the allegations that they testified 
to under oath?
    Mr. Jaczko. Congressman, I believe I have answered this 
question.
    Mr. Gowdy. Well, do it again for me. Do you deny them?
    Mr. Jaczko. As I said, I believe I have answered this 
question very well to the best of my ability here.
    Mr. Gowdy. I would recognize the gentleman from Illinois, 
Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. I would like 
to yield 30 seconds to my colleague from Ohio, Mr. Kucinich.
    Mr. Kucinich. With all due respect to my good friend, the 
chair, these allegations are not allegations of criminal 
misconduct or anything like that, they are allegations that he 
doesn't get along with his Commissioners. That's not a basis 
for either imprisonment or for having the chairman resign.
    So I think that we have to put this in perspective and 
continue to insist that the Commission focus on safety, and I 
want to take this opportunity to wish all of the members of the 
Commission a Happy New Year.
    Mr. Davis. Reclaiming my time, thank you very much, Mr. 
Chairman.
    Let me first of all thank the witnesses for appearing, I'm 
going to shift gears a little bit.
    In July, the Union of Concerned Scientists issued a report 
entitled ``U.S. Nuclear Power After Fukushima, Commonsense 
Recommendations for Safety and Security.''
    This report includes recommendations for changes that the 
NRC should make to improve the safety and security of U.S. 
nuclear plants. One recommendation made by UCS was that NRC 
regulations should be extended to cover severe accidents. This 
is what the UCS report states.
    The NRC defines severe accidents as those more serious than 
the so-called design basis accidents that U.S. reactors are 
designed to withstand. While unlikely severe accidents can 
occur, as in Fukushima, and cause substantial damage to the 
reactor core and failure of the containment building, leading 
to large releases of radiation, for example, the agency does 
not evaluate or test the severe accident management guidelines 
that reactor owners voluntarily develop, so neither the NRC nor 
the public can be confident these guidelines would be 
effective.
    Mr. Chairman, I understand that there has to be a 
reasonable limit on what licensees are required to do and that 
every plant can't be fully prepared for every imaginable worst-
case scenario.
    However, Fukushima should provide a wake-up call that 
severe accidents can and do happen. The Gulf oil spill is a 
prime example. That was the worst-case scenario, industry 
wasn't prepared, and it resulted in the worst environmental 
disaster in our Nation's history; would you agree with that 
statement?
    Mr. Jaczko. Yes, it's a very fair statement.
    Chairman Issa. [Presiding.] Would the gentleman suspend for 
just a moment. We have stopped the clock.
    We're going to have a minority hearing in a few moments, 
because that's a right. And I want to make sure that everyone 
understands, I have been very tolerant, but this hearing is not 
on nuclear safety, and we are not a committee with nuclear 
safety as a direct oversight.
    This is on the leadership of the Nuclear Regulatory 
Commission, and although I will allow anything you want to do 
with your 5 minutes, I've always been very understanding, I 
would caution all members on both sides of the aisle that this 
is about a concern that has been legitimately raised all the 
way to the White House, that the committee believes is well 
within our unique jurisdiction as the Oversight Committee. 
We're not the Energy and Commerce Committee, we're not some of 
the Science Committee and so on.
    So I just, the gentleman can continue, the chairman can 
answer, but if we're going to make this about nuclear safety, 
then we've essentially hijacked a legitimate issue and anyone 
who does it, shame on you. The ranking member.
    Mr. Cummings. Mr. Chairman, just a clarification, I didn't 
hear the question that the gentleman asked, but part of this 
hearing goes to safety and whether this Commission can function 
and carry out its safety responsibilities. As a matter of fact, 
there has been, the majority report that came out, talked about 
a catastrophe, and I use that word, because of what was said at 
the Commission and that they would not be able to function 
properly. So I don't whether that question goes to safety and 
whether or not they are able to periodically----
    Chairman Issa. Would the gentleman yield, and I thank the 
ranking member.
    I was cautioning members because Mr. Davis was probably the 
best example of I know he was well intentioned, but nothing in 
his comment and nothing in his questions seem to go to the 
management and the questions of the management and capability 
to manage.
    Mr. Kucinich. Mr. Chairman.
    Chairman Issa. Hold on. The fact is I respect every member 
of this committee. I have always said--and I wasn't that way 
when we were in the minority in a couple of cases. Mr. McHenry 
vividly remembers being shut up because he was, quote, off 
subject. Use your 5 minutes any way you want, but I would 
caution members that, in fact, our jurisdiction, our legitimate 
jurisdiction is not over directly second guessing safety but, 
in fact, our oversight of the entire Federal workforce, all 
commissions, all agencies.
    And so I only would ask that we do as much as we can to 
recognize that if there's an additional hearing, and if we 
legitimately can hold a hearing on the safety of our nuclear 
facilities more broadly, that's a legitimate hearing to ask 
for.
    This hearing was very narrow, and it had to do exactly with 
why these five Commissioners are here today. The ranking 
member.
    Mr. Kucinich. Just briefly, just briefly, there's two 
points I want to make briefly. First of all, thank you for 
holding this hearing. I think it's important at this time and 
place that we have the hearing.
    And the second thing that relates to Mr. Davis' concerns, 
if, for example, the industry is upset with this chairman and 
they would go through the members of the Commission to try to 
get at the chairman, the industry might be upset because they 
are concerned of pressure on safety. This is just a 
hypothetical, so I think that there might be a connection here 
is what I'm saying.
    Chairman Issa. And, Mr. Kucinich, I completely agree with 
you that if, in fact, the line of questioning goes toward, 
quite frankly, the intent and the reason behind two Democratic 
and two Republican appointees, somehow, making an objection 
that is not based on the failure of, you know, the allegation 
of mismanagement or particularly of outbursts and erratic 
behavior, you're absolutely right. Those kinds of questions 
certainly fall within the question of management at the Nuclear 
Regulatory Commission and would be in order.
    And, Mr. Davis, I apologize. If you want to take additional 
time to restate your question.
    Mr. Kucinich. Mr. Chairman, I want to thank you for the 
manner in which you have conducted this hearing, I appreciate 
it, and I'm very grateful.
    Chairman Issa. Thank you. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman and with all 
due respect, and the comments of the ranking member, those of 
the ranking member of the subcommittee.
    Understanding in any way shape form or fashion and quite 
frankly, we haven't gotten to my question yet, his comment is 
second; the mission of the regulatory agency is very important 
to me, the mission, and the outcome of the decisions that are 
made.
    No matter how much you may disagree or bicker, or have 
difficulty with management style and with personality 
differences, in the end, the bottom line is do we make the best 
and most effective decisions for the people of this country and 
all the environments that are impacted and affected by those 
decisions?
    And so, Mr. Chairman, my question is, do you feel that the 
interaction between yourself and other Commissioners have had 
any negative impact relative to decisions that the Commission 
has made?
    Mr. Jaczko. Well, no, I don't think it has. I think 
certainly I want to work to improve the communication but, for 
example, since this letter was worked on, the Commission has 
held nine meetings where we've gotten together and been briefed 
on a variety of different issues.
    We have held one of our significant hearings related to new 
reactor licensing. We have held three of our formal voting-type 
sessions where we formalized legal opinions of the Commission. 
And as I said, yesterday we held a meeting on a very important 
safety issue related to fire protection.
    The Commission has also held at least two agenda sessions, 
which I had held routinely every month, and that was, in 
particular, one of the suggestions and recommendations from 
that 1999 Inspector General report that the Commission have 
regular sessions to talk about agenda, and that's something 
that I have instituted.
    Mr. Davis. Well, your answer is no. Let me just, Mr. 
Chairman, with your indulgence, could I ask if the other 
Commissioners would just respond quickly to that?
    Chairman Issa. I would ask unanimous consent for an 
additional 30 seconds for the gentleman, without objection.
    Mr. Apostolakis. The decisions have not been affected by 
the management issues that we have raised. I believe all the 
decisions that have been made, having in mind the safety and 
the adequate protection of the American public, and I am 
personally very offended by the suggestion that I am an 
instrument of the industry in its efforts to overthrow the 
chairman.
    Mr. Ostendorff. I agree with Mr. Apostolakis. I am also 
offended by the implication of Mr. Kucinich's statement. I 
assure this committee----
    Mr. Kucinich. I want to respond.
    Chairman Issa. Please continue, sir.
    Mr. Ostendorff. With respect to Mr. Davis' statement, I 
could not more wholeheartedly agree with your emphasis on 
nuclear safety.
    I agree with my colleague, Commissioner Apostolakis, that 
we have done our very best. We are making good decisions. That 
said, we are still operating under a very difficult environment 
that does not give me confidence that our staff feels free to 
bring us the best information uninfluenced.
    Mr. Kucinich. A point of personal privilege.
    Chairman Issa. The gentleman may continue. The gentleman is 
trying to get answers from each of the Commissioners, and I 
would like to have that in order first.
    Mr. Magwood. I agree with my colleagues, I think that we've 
been able to continue the people's business very well under the 
circumstances. I think the senior staff has managed to keep the 
agency focused during whatever conflicts have been occurring. 
The staff of the NRC has been focused on their mission of 
safety. I believe that the agency is functioning at the bottom 
line protecting health and safety as well as it ever has. That 
doesn't mean it's been easy.
    Ms. Svinicki. I agree with Commissioner Magwood's response.
    Mr. Davis. Thank you very much, Mr. Chairman, I appreciate 
that.
    Chairman Issa. Would you yield to the gentleman from Ohio 
for a second.
    Mr. Davis. Yes.
    Mr. Kucinich. Thank you, Mr. Chairman. Commissioner 
Ostendorff, I didn't call your name, I gave a hypothetical 
about the potential influence of the industry on members of the 
Commission. But since you objected to that, I find that very 
instructive. Thank you, Mr. Chairman.
    Chairman Issa. Thank you. The gentleman's time has expired.
    Mr. Davis. I yield back, Mr. Chairman.
    Chairman Issa. I thank the gentleman. We now go to the 
gentleman from Michigan--oh, I'm sorry, I now go to the 
gentleman from Florida, Mr. Ross, the Republican on the 
Democratic side. Mr. Ross.
    Mr. Ross. Thank you Mr. Chairman, Commissioner Magwood, I 
am very impressed with your experience, not only in the nuclear 
industry, but also as an administrator. And I read your 
testimony, opening testimony, and you talk about some incidents 
involving some abusive behavior with female employees that you 
had encountered and, in fact, I think you indicated that 
nevertheless I found their misogynistic behavior entirely 
unacceptable and personally offensive and you immediately let 
these supervisors go. That behavior that those people that you 
let go, does that compare in any way to the behavior expressed 
by Chairman Jaczko?
    Mr. Magwood. It was similar in the fact that it was verbal 
abuse. It was, it involved screaming and, you know, just a lot 
of pointed language that the women involved found very, very 
emotionally straining.
    Mr. Ross. And when you let go in your previous situation, 
when you let those supervisors go that were being the abusers, 
that changed, didn't it? It improved the situation?
    Mr. Magwood. Well, let me emphasize that it was within the 
Federal government, so I didn't have the ability to simply fire 
these people. I would have liked to have fired them.
    Mr. Ross. But you eliminated the distraction?
    Mr. Magwood. Absolutely. I immediately, the very day I 
found out, they were removed from their supervisory 
responsibilities and geographically relocated.
    Mr. Ross. And do you believe that removing Chairman Jaczko 
may be appropriate to protect any further abuse to the female 
members of the NRC?
    Mr. Magwood. I suspected that a question like that might 
come up. I have decided to simply present the facts as I 
understand them and let others make that decision. It's not 
within my power to appoint or remove a chairman, but I think 
that these are--this is information that people----
    Mr. Ross. But it rose to the level of abuse that you had 
seen in the past?
    Mr. Magwood. It was very similar. The stories I heard were 
very similar to what I heard in the past.
    Mr. Ross. And removing that abuse corrected the problem?
    Mr. Magwood. Yes, it did.
    Mr. Ross. Okay, and that has been your experience.
    Ms. Svinicki, you talked about lack of confidence. Do you 
feel there's any way to repair the confidence in this chairman?
    Ms. Svinicki. If the conduct were to be completely changed, 
there is always the potential to rehabilitate relationships.
    Mr. Ross. Commissioner Ostendorff, how do you feel? Do you 
feel that your lack of confidence at this point is reparable or 
do you feel that it's just lost?
    Mr. Ostendorff. Sorry--I would have to agree with 
Commissioner Svinicki that it's been severely damaged, and once 
there's an erosion of trust, it's extraordinarily difficult to 
regain that trust. I'm not going to say it's going to be 
impossible or would be impossible, but it would be 
extraordinary difficult to regain.
    Mr. Ross. Thank you. And, chairman, I can't help but sit 
here and think of the kids watching the movie ``The Caine 
Mutiny'' contain with Humphrey Bogart and him being put on 
trial, and by his crew members in a very serious situation. So, 
I mean, it begs the question, Captain--I mean, Chairman Jaczko, 
how has the crew--the voyage been so far?
    We're at a point now where you have made an apology. And 
specifically what I am asking is what did you apologize for?
    Mr. Jaczko. Well, as I've indicated in a letter to Mr. 
Daley, I apologized for the distraction, and I look forward to 
discussions with my colleagues about ways that we can further 
enhance and improve our communication and trust.
    Mr. Ross. And one of those suggestions is that you have a 
third party, I would assume a facilitator, to try to reopen 
lines of communications with your fellow Commissioners. My 
concern is, is that if the issue becomes more of maintaining 
your position, as opposed to restoring the integrity of the 
NRC, what is your course of action? Are you considering a 
resignation?
    Mr. Jaczko. I have no plans to resign.
    Mr. Ross. Okay, even if it means more to focus on keeping 
your job than to restoring the NRC?
    Mr. Jaczko. I have no plans to resign because I continue to 
believe that under my leadership the agency has performed very 
well. We have committed ourselves to safety, and I believe my 
record shows that.
    Mr. Ross. But it's unprecedented where we are today when 
you have the four Commissioners who have made these 
allegations. And as a student of management myself, I can only 
suggest to you that management by intimidation may have some 
short-term goals, but some long-term effects, that are very 
adverse. Management by motivation is probably the only way you 
are going to restore the integrity of this organization.
    So I implore you, I beg of you, if it is your position you 
seek to keep, then it is the integrity of this organization 
that must be foremost, and it must be done so through not only 
a facilitator--if that's what you believe--but more 
importantly, through motivating these people to be the best 
that they have been able to be, for what is at stake here is 
not only the 4,000 employees, but the nuclear safety of this 
entire country.
    I yield back.
    Chairman Issa. Will the gentleman yield?
    Mr. Ross. I'll yield.
    Chairman Issa. Thank you.
    Mr. Chairman, wouldn't you agree that what's going on here 
today and what's been going on for months now clearly hurts 
your ability to retain, recruit, retain many of those 4,000 
people and to motivate them to do their best job?
    Mr. Jaczko. Well, I have, I have not seen any drop-off in 
any of those areas.
    Chairman Issa. Okay. So none of this has any effect on 
4,000 people.
    Mr. Jaczko. As I've indicated, I think it's unfortunate 
that we have this distraction, but the men and women at the NRC 
are professionals and they'll will continue to do their jobs 
effectively.
    Chairman Issa. Okay. We now go to the gentleman, Mr. Welch.
    Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman. Thank you for calling 
this hearing, a couple of points. Number one, I regret, 
obviously, that we're here. This is not a personnel committee, 
and it is regrettable that there is this conflict at the senior 
level of the Commissioners.
    Number two, I don't think that Congress is the place to go 
to resolve this.
    Number three, I assume that each one of the members of the 
Commission is professional and makes decisions based on each of 
your own independent best judgments. The obstacles and the 
challenges that you face, professional and personal, 
notwithstanding, and I think we all owe you that debt of 
gratitude.
    The concerns I have are less about trying to resolve 
something that I don't believe is within the capacity of a 
congressional committee to resolve, it has to do with the 
safety and the focus on safety, and I say that as a 
representative from the State of Vermont where we have had an 
ongoing, and somewhat contentious situation involving our local 
nuclear reactor.
    When things like a cooling tower fall down and the reaction 
on the part of the company that runs it is that it's not really 
a big deal, that doesn't provide great assurance to the people 
of Vermont. When there is discovered leaking underground, 
reactive material and the response of the nuclear power company 
is that they don't have underground pipes, and it turns out, in 
fact, they do have underground pipes, that posits significant 
concerns, a concern by Vermonters.
    There is litigation now, and we understand that this body 
voted between the State of Vermont and Entergy about its 
future, and we understand that the Commission voted by a 3-2 
margin to come in as a friend on the side of Entergy against 
this litigation.
    Mr. Welch. That causes us some concern. So safety is my 
concern. And I know that safety is your concern, but I just 
have a few questions that caused me some concern about how 
active and aggressive the Commission is on coming to a 
conclusion about some safety standards. The most recent NRC 
fire protection standards were promulgated in 2004. Earlier 
standards that applied had not been met for 25 years. And as I 
understand it currently, 47 nuclear power plants are still not 
in compliance and they are requesting yet another 12-year 
delay. And my understanding is the Commission is basically 
accommodating a 12-year delay on top of a 25-year delay. 
Commissioner Apostolakis, can you address that.
    Mr. Apostolakis. Yes. The reason why the new regulation was 
promulgated in the 2000's is that because of the large number 
of exemptions of requests for exemptions that we received 
regarding the area, we decided that stuff--we decided this was 
not working very well. But I would like to point out when we 
say 47 plants or units do not comply, they have been--they have 
implemented compensatory measures. They don't comply with some 
provisions of the original rule, but they have done something 
else to meet the intent of their rule. So it's not that they 
are unsafe or anything, and this new rule now----
    Mr. Welch. Thank you, I only have a few minutes. I 
appreciate your response. I guess what I will have it do 
because I can't ask a whole lot of questions is to express to 
each of you the concern about what appears to be a very slow 
turnaround on the implementation of safety standards. And you 
know full well that if you're living in shadow the of a nuclear 
plant, the closer you are, the more anxious you are. But we 
have examples, and this is what's so profoundly important about 
the safety focus is that if something can go wrong, even when 
we think it won't, it probably at some point will go wrong and 
that's what we saw in Japan.
    And if something goes wrong the consequences of an event 
are so catastrophic, and I'm preaching to the choir here, I 
know. But I'm doing it because this is the anxiety we live with 
in Vermont. And when we have a nuclear power plant that the 
cooling tower collapses and we're told not to worry about it, 
that's hard to be comfortable. And when there is leaking pipes 
and we are told there are no pipes, and upon investigation 
there is. We really need to see a sense of urgency. In some 
cases, some penalties associated with wrong information being 
provided and failure to comply with safety standards, because 
some of these things that happen in the beginning that 
fortunately don't cause harm give you some apprehension that an 
event will occur that does cause harm. So thank you very much.
    Chairman Issa. Thank you. We now go to the gentleman from 
Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you to the 
panel for being here. This is truly not a hearing that I ever 
expected to be a part of as a Member of Congress, and certainly 
not with the Nuclear Regulatory Commission. But I think it's a 
hearing that apparently is very well positioned and important 
to have. When I read through the letter that was sent to Chief 
of Staff Daley, and I read bullet points in that letter, and 
I'd like any Commissioners that would be willing to comment. 
The question that I will have from this, where it says that the 
chairman intimidated and bullied senior career staff, that he 
interacted with us, his fellow Commissioners, with such 
intemperance and disrespect that the Commission no longer 
functions as effectively as it should.
    That's strong language in a letter, an unprecedented letter 
that has been sent to this administration. And I would--I would 
surmise that if this administration, from this hearing, 
understands the gravity of this situation and how that, with no 
pun, intended this could blow up still further to a regulatory 
agency of an amazing importance to us. That strong language is 
telling. Can you, any of the Commissioners, explain to me why 
this language was included with specific illustrations? I don't 
want to pick on a University of Michigan grad, but Commissioner 
Svincki, why was the language included and what are the some of 
the key illustrations that you'd give for its importance?
    Ms. Svinicki. I would state that I realize the significance 
of putting my hand to that language. I did not do so lightly. I 
would characterize that I did it very reluctantly, candid and 
candidly I would state realizing that ultimately it could bring 
us the kind of event that we're holding this morning. And I 
regret that, but that language at that time I supported that, I 
was comfortable in support of it, but realized the significance 
of my action.
    Mr. Walberg. Any significant illustrations of what you put 
in that language, examples?
    Ms. Svinicki. I think a number of the events have already 
been testified to this morning regarding interactions between 
the chairman and the professional staff of the agency. There 
also have been very tense interactions in meetings between the 
chairman and members, other members of the Commission. And 
again, I think people can be passionate about issues without 
fundamentally the kind of conduct that I've observed.
    Mr. Walberg. Any other Commissioners' response to that?
    Mr. Ostendorff. Yes, sir, I will comment specifically that 
senior staff has complained to me personally about the chairman 
taking an approach that led them to believe that they were not 
in a free environment to bring forth their best views with 
respect to how SECY paper 11-0093 the near-term task force 
report from Japan where there is a paper that was acknowledged 
to have been withdrawn back in July. There's also staff 
complained to me about how the chairman's office and chairman 
responded to their content of the 21-day report with respect to 
short-term actions to be taken as a result of Fukushima.
    Mr. Walberg. So this goes to safety?
    Mr. Ostendorff. Those two reports dealt with how the 
Commission would take actions in response to the Fukushima 
event.
    Mr. Walberg. Any other Commissioner's response to that? Mr. 
Chairman, I want to yield to you some time, but I do have one 
final question so would be glad to yield this if you will then 
allow me to finish with one----
    Chairman Issa. I will be very brief. For each of the 
Commissioners, do you believe that employees, professional 
staff of the NRC have experienced intimidation, hostile or 
offensive conduct on behalf of the--by the chairman, anything 
that would be considered to be intimidating, hostile or 
offensive by the chairman, any professional staff experience 
that?
    Ms. Svinicki. Yes.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Mr. Apostolakis. Yes.
    Chairman Issa. Ladies and gentlemen, that's the definition 
of harassment. I hope that we can all agree that that's why we 
put it in the statute. I yield back.
    Mr. Walberg. Thank you, Mr. Chairman. Recently Dale Klein, 
former commissioner and colleague suggested that the chairman 
does not need to be removed from the panel, but could instead 
be demoted by the President. A new chairman be chosen from 
among the existing members. Would anyone on the panel like to 
comment on this potential solution?
    Chairman Issa. I don't think you will get someone who wants 
to say they want to be chairman here today. I ask unanimous 
consent the gentleman have an additional 30 seconds.
    Mr. Walberg. I guess that's my point, Mr. Chairman. I 
probably didn't expect someone to answer and say, yeah, I would 
like to be the chairman. Or I will appoint that or I will 
suggest someone. But I think this certainly indicates a very 
significant problem with this Commission being able to function 
together for the best interest of this country, the citizens it 
serves, the regulatory responsibility they have. And that 
indeed, if this is the problem, to this extent and the 
administration's willing to let it go on, we in America have 
concerns beyond simple management styles, but the function of 
this regulatory agency and the responsibility to the American 
people. Thank you, Mr. Chairman.
    Mr. Jaczko. Mr. Chairman.
    Chairman Issa. I thank the gentleman. If the gentleman 
would like to respond.
    Mr. Jaczko. Yeah, could I make a comment please? I 
appreciate the opportunity. My colleague mentioned a meeting or 
a phone conversation I'd had on the development of the so-
called 21-day paper. I believe the committee has an audio 
recording of that conversation. And I'm certainly comfortable 
with that audio being made publicly available. I believe it 
characterizes my passion and demonstrates my commitment to open 
discussions among members of the staff, and my strong interest 
in them providing me with their candid views. So that if 
nothing else, I can ensure that the Commission is informed with 
the information it needs.
    Chairman Issa. I thank the gentleman. Can I get a nodding 
of heads by all the Commissioners that the release of audio 
that has been recorded can be made available to the committee? 
Hearing no objections, I assume they will be delivered to us. 
With that, we recognize the gentleman from Idaho, Mr. Labrador, 
for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman. I especially want to 
welcome Commissioner Magwood who worked diligently at the Idaho 
National Laboratory. And I believe Commissioner Svinicki worked 
for one of our senators, so thank you for being here.
    This has been truly one of the most frustrating hearings 
I've ever participated in, because I've never seen such self 
deluded behavior by any individual in probably my entire life. 
The lack of awareness of what's happening here in the 
Commission is truly astounding to me. To watch an individual 
sit here and say that the only thing he is responsible for, and 
he's sorry about is that the distraction that has been caused 
by your behavior. It is truly just embarrassing just to watch 
you this entire time that I've been here.
    So let's really just get down to what's happening here. You 
believe, and you did not answer this question when my good 
colleague over here asked you the question. But you believe 
that you are more passionate than the other four individuals 
sitting here about nuclear safety; is that not true?
    Mr. Jaczko. Well, I----
    Mr. Labrador. Just answer the question yes or no, you can 
say yes, you can say no. Are you more passionate, are you less 
passionate or are you equally passionate? It's a simple 
question.
    Mr. Jaczko. My voting record, I think, shows that I have 
taken positions on safety----
    Mr. Labrador. So are you more passionate, is that what you 
believe?
    Mr. Jaczko. I would say my position----
    Mr. Labrador. And you also believe you have better judgment 
than these four individuals, is that not true?
    Mr. Jaczko. I believe that I----
    Mr. Labrador. Yes or no, simple question.
    Mr. Jaczko. I believe I have very good judgment as a 
safety----
    Mr. Labrador. And your judgment is better than the four 
individuals here combined, isn't that true, according to your 
own opinion?
    Mr. Jaczko. It's up to others to determine----
    Mr. Labrador. No, it's up to you because you're the one 
who's making decisions that is making their life a living hell. 
So you tell me do you have more passion, do you have better 
judgment, yes or no?
    Mr. Jaczko. I feel very strongly that I have an appropriate 
judgment----
    Mr. Labrador. You have better judgment than the other four 
individuals sitting here correct according to you?
    Mr. Jaczko. Congressman, as I said many times, I'm----
    Mr. Labrador. Okay, you're not going to answer the question 
when it is clearly from your statement, from your actions that 
you believe that your judgment and your passion surpasses the 
four of them combined.
    So your distraction that's being caused--it is interesting 
to me, I have managed an organization, I had a law firm for a 
while. Now I have to manage my congressional office. Your 
management style is bringing some problems that are being 
brought here to the fore, and you're saying that you're willing 
to work with them, but you're not willing to admit that you 
have done anything wrong, that's what I cannot understand. The 
only way you're going to be able to work with these individuals 
and actually change your management style is by admitting that 
you actually screwed up, that you actually did something wrong.
    Are you not willing to admit that there is something in 
your management style that has brought us to a congressional 
hearing that is unprecedented in American history?
    Mr. Jaczko. Well, Congressman, I take responsibility----
    Mr. Labrador. Yes or no.
    Mr. Jaczko. --for this agency. And as I've indicated, I'm 
willing to discuss these issues with my colleagues and figure 
out how we can better communicate.
    Mr. Labrador. But you haven't done anything wrong. What are 
you going to discuss that they are wrong and you're right, 
correct?
    Mr. Jaczko. I would like to discuss these communication 
issues and some of the misunderstanding.
    Mr. Labrador. Have you done anything wrong in your 
management of this agency?
    Mr. Jaczko. Congressman, as I said, I take full 
responsibility.
    Mr. Labrador. For what?
    Mr. Jaczko. For this organization.
    Mr. Labrador. No. For what in your behavior are you taking 
responsibility for? Just name one thing, just one thing that 
you admit that you have done wrong because I don't believe 
these four individuals would come here if you haven't done a 
single thing wrong. Just name one thing that you've done wrong.
    Mr. Jaczko. Well, Congressman as I said, I'm very 
passionate about safety and----
    Mr. Labrador. So it is wrong for you to be passionate about 
safety is that what you're telling the American people right 
now?
    Mr. Jaczko. Congressman----
    Mr. Labrador. Is that wrong to be passionate about safety 
and they are not passionate about safety, right?
    Mr. Jaczko. Congressman, as I said, I'm very passionate 
about safety, if that's ever been misconstrued by my 
colleagues, that's something I would like to discuss.
    Mr. Labrador. But what is in your passion, in your 
passionate statements, what's wrong would bring us to a moment 
that we have to have these four individuals, these four 
Commissioners who have dedicated their entire life to the 
public safety of our Nation, what in your behavior is wrong? 
Just name one thing, that's all I'm asking. I can name 20 
things that I have done wrong in my life if somebody asked me 
the question. You can't name one thing.
    Mr. Jaczko. Well, Congressman, as indicated, it's a 
conversation I think I would like to have with my colleagues to 
better understand----
    Mr. Labrador. This is ridiculous. Your answers today have 
been totally ridiculous. Because there's no way that these 
individuals who have the same passion, the same commitment to 
the safety of the United States would be sitting here 
complaining about you, complaining about the staff unless you 
had done something wrong. And it's absolutely ridiculous for us 
to think that under any circumstance, you're going to change 
your behavior because you're not even willing to admit that you 
did one thing wrong. That's just incredulous to anybody who is 
watching this meeting.
    Mr. Chairman, I've run out of time.
    Chairman Issa. I thank the gentleman. We now go to the 
gentleman from New Hampshire, Mr. Guinta, for 5 minutes.
    Mr. Guinta. Thank you very much, Mr. Chairman. I just have 
a couple of quick questions. For anyone on the panel other than 
the chairman, can anybody talk to me about the first IG report 
and what conclusions it made relative to this issue?
    Ms. Svinicki. I--sir, I will attempt just broadly. The NRC 
inspector general has testified, I believe, before the House 
Energy and Commerce Committee earlier this year on the content 
and conclusions of his report. That report focused--it covered 
a number of issues, but it spent much of its content on the 
decisionmaking around the Yucca Mountain related activities at 
NRC. There were some other more broad findings about the 
relationship on the Commission and I would like to reacquaint 
myself with those findings rather than testify then generally.
    Mr. Guinta. Okay. To the chairman, I see a letter hear 
dated December 12th from the President's Chief of Staff, and 
it's issued to Chairman Issa. And in it, it says, the fourth 
paragraph down, ``He has indicated his intention to reach out 
to his fellow Commission colleagues for that purpose,'' he's--
referring to you. On the back of the letter he talks about the 
development of any recommendations to improve the circumstance. 
So it sounds like what he's saying here is that the President's 
not going to take action, that he'd prefer these issues be 
resolved by you and the Commission. Is that your understanding 
of----
    Mr. Jaczko. Well, I don't want to speak for--certainly for 
the administration, but as I read the letter what I saw was 
that the Chief of Staff would be looking at the situation and 
would be looking to inspector general's report to get some 
guidance on ways to improve the organization.
    Mr. Guinta. Would you agree with the assessment in this 
letter that the disagreements amongst the Commission are over 
policy matters?
    Mr. Jaczko. I certainly think we have policy disagreements, 
but I think there are also, I believe, organizational 
miscommunications and misunderstandings about roles and 
responsibilities.
    Mr. Guinta. To me, it appears that the IG's report has 
really not improved things. As a matter of fact, from what I 
read and heard, you can make an argument of things further 
deteriorating. So I appreciate your interest in wanting to work 
with your colleagues, but it seems like that point has come and 
gone. And as stated by other members of this committee, I think 
there is growing frustration that we're at this level of 
inquiry.
    So I would prefer that this be handled in one of two ways, 
but have you yourself, you say you take full responsibility for 
actions of the committee. Would you consider stepping down as 
chairman.
    Mr. Jaczko. I have no intention to resign.
    Mr. Guinta. I would yield back the remainder of my time.
    Chairman Issa. The gentleman yields. Thank you. I think it 
is clear, the chairman is making no apologies for misconduct, 
only for the lack of harmonious life among the five of you. I 
asked the chairman who his Board of Directors is. I asked him 
about collaborative and normally consensus-type activity. For 
each of the Commissioners, when the chairman was not the 
chairman, do any of you believe that he would have accepted one 
of you treating him the way he is now treating you?
    Ms. Svinicki. Sir----
    Chairman Issa. No?
    Ms. Svinicki. I believe I'm the only member of the 
Commission who served with Chairman Jaczko when he was then a 
Commissioner, we were both Commissioners when I began my 
service on the Commission. And I would characterize that I 
actually, when I was new to the Commission, found very helpful 
that he tutored me in many of the ways of insisting upon the 
role of individual Commissioners that they have an important 
contribution to make. I considered that I learned many of those 
points from him.
    Chairman Issa. So when he was a Commissioner, life was 
collaborative, he got it, he was a former staffer to House and 
Senate people, he kind of got the idea that you all had to work 
together and reach, at least the 3-2 vote, and hopefully 4-1 or 
a 5-0 whenever possible. So this is a very capable 
Commissioner, just not a good chairman in your opinion, a 
terrible chairman in your opinion.
    Ms. Svinicki. I would characterize that during that period 
it really was limited to policy differences at times and not 
the differences we see now.
    Chairman Issa. I ask unanimous consent for just 30 more 
seconds for a single question because one half of this has been 
asked repeatedly. For each of the Commissioners, now I'm not 
looking at you as Republicans or Democrats, Democratic members, 
because as far as I can tell, none of you are partisans in your 
background, certainly career Navy officers and so on. So you've 
been accused sort of, of being lapdogs for industry, not caring 
enough about safety. There has been some insinuation that that 
could be the case. Would each of you just briefly tell me about 
your view, your passion about safety and how that brings you to 
each of your votes when you are given an opportunity, please?
    Ms. Svinicki. My sole motivation in serving on the NRC is 
to work on issues of advanced nuclear safety and security for 
the country. I have many family members in Wisconsin and 
Michigan that live near nuclear power plants, and so I'm 
concerned for all Americans and think and am motivated even my 
own family in their protection and safety.
    Chairman Issa. Commissioner Magwood.
    Mr. Magwood. Mr. Chairman, as someone who's spent really my 
entire professional career working in the nuclear field, I have 
a very deep appreciation for the hazards presented by handling 
of nuclear materials, I've overseen it for many years at DOE. 
As a result, I view any nuclear activity as a matter of great 
responsibility. I think that anyone who is involved in that 
activity should be held to a very, very, very high standard, 
and I expect the best of everyone involved. Thank you.
    Mr. Ostendorff. Mr. Chairman, I have a record going back to 
1976 for being involved in nuclear power issues, nuclear 
weapons issues. I assure you that having operated and trained 
others to operate, supervise and maintain nuclear power plants 
and submarines that I have a very rigid sense of safety and am 
very concerned on safety issues. And I welcome anybody to 
examine and discuss my voting record with me on safety issues 
at NRC.
    Chairman Issa. Commissioner?
    Mr. Apostolakis. Mr. Chairman, I have spent my entire 
professional career working on nuclear safety issues and I was 
elected to the National Academy of Engineering on the basis of 
my contributions.
    Chairman Issa. I will yield the same amount of time to the 
ranking member as I'm going over so I will be very brief. 
Commissioner Ostendorff, as a former Navy officer, from your 
experience, not just within your commands, but within your 
military service, which is much longer than mine, don't you 
have countless examples you've seen of fine officers who were 
competent, technically capable who were relieved because, in 
fact, they exhibited behavior that lost the confidence of the 
men and women that worked for them?
    Mr. Ostendorff. Yes.
    Chairman Issa. Thank you. I yield to the ranking member.
    Mr. Cummings. I'm sitting here and I'm listening to all of 
this and I swear to God, this is incredible to me. We are 
better than this, and, you know, I feel like I'm sitting here 
trying to referee a fight. And I said from the beginning, I'm 
not a referee, I haven't done that since my kids were tiny and 
now they are adults.
    Chairman Jaczko, let me tell you. I do appreciate the fact 
that you're willing to sit down with your colleagues. I don't 
want you to quit. I do not want to you quit. I want you to 
continue to fight for the American people and do what's right 
for them. And I don't think your passion and your commitment 
and your expertise is any greater than the other Commissioners. 
I think all of you are very wonderful, strong Americans, very 
committed to our safety. And I believe you've given everything, 
you've giving everything you've got to make things work. But 
we've got to do better than this.
    There is no reason, I think, why this should have risen to 
this level. And Commissioner, I know people have been trying to 
get you to admit you that you've done things wrong. I would 
imagine that people up here would have a difficulty admitting 
that they were wrong when they've got opinions saying they 
operated within the law and what have you. I don't know what 
they would say to be frank with you. But I do know one thing, 
that--and I--after 61 years on this earth I have come to 
realize something that's very significant, one of the best ways 
not to achieve a goal is to be distracted. I mean, if you look 
at people who have not achieved the things that they tried to 
achieve in life, a lot of times, it is because they got 
distracted.
    I have not come to ask you--all five of you, I've come to 
beg you to work this thing out. I mean, to sit down like 
reasonable people and work it out. The American people are 
tired of dysfunction. They are really tired of us. And we--what 
you all are doing is so very, very important. I listen to 
everybody and Commissioner Apostolakis, I'm getting there.
    Chairman Issa. When you get to know him better, his name is 
George.
    Mr. Cummings. You know, I heard what you said. I think you 
summarized it better than anybody else. When asked whether you 
lost confidence, did this Commissioner, Mr. Jaczko, could do 
the job, you said, you know, I think he can do it, but he's got 
to change his attitude a little bit. Is that pretty much--I 
don't want to take words out of your mouth. That's pretty much 
what you said, is that right? Come on, talk to me.
    Mr. Apostolakis. That's a summary of what I said.
    Mr. Cummings. Say it, tell me. I don't want to misstate 
you.
    Mr. Apostolakis. He should control his temper and let the 
staff send us their frank views.
    Mr. Cummings. Stop doing what?
    Mr. Apostolakis. Frank views, opinions, the staff. The 
staff should communicate to the Commissioners their candid 
opinions. 
    Mr. Cummings. Can you live with that, Mr. Chairman?
    Mr. Jaczko. Absolutely.
    Mr. Cummings. Yeah. I mean I keep thinking, you know, you 
guys have to go back. You know, all the press, you see all them 
press people? They are loaded up over there, they are typing 
away, look at them. You know why, because they like 
controversy. They want to make--they are Tweeting and twitting 
and doing all kinds of things right now so that--and you all 
have been elevated, all of you, now everybody knows your names. 
But I'm telling you, when all of this is over, you've got to go 
back. The President is not going to get rid of you. You're 
doing a great job. It may not be attitude--I think you need to 
change some of these attitudinal things that you're dealing 
with, but you have to do that.
    So I beg you for the sake of the American people to please 
sit down, work this thing out. I mean, sharing information with 
your fellow Commissioners, do what you've got to do, but make 
it work. That's all I have to say.
    Chairman Issa. I thank the ranking member. As I close the 
first panel, I would like to make it very clear that if this 
does not get resolved, this is not the last time this committee 
will come to a full committee hearing to review the status of 
management at the NRC. Additionally, we are the personnel 
committee of the Congress to a great extent. We do look at the 
management structure. We do so like a Board of Directors, it is 
not ours to tell you what to do. It is ours to find out whether 
it is being done as is prescribed by law and as the executive 
branches said they want to do.
    We will retain continuing jurisdiction, we will expect all 
of the promises made here today of material to be added to our 
discovery. We will, in fact, also remind everyone, we're the 
whistleblower committee, people come to us on our lines, on the 
Internet by the hundreds per week. Those people expect that if 
they give us information, there will be no retaliation within 
any agency of government. We will strictly enforce and protect 
anyone who comes before this committee at any time, and I know 
in the opening statement that was mentioned. People who come 
before us come protected from the moment they come to tell us 
something. The only time they are not protected is if they are 
not telling the truth, to use a double negative.
    We will continue to look. We will not tolerate harassment, 
we will not tolerate retribution. Now the ranking member said 
it more eloquently than I could, we want you to resolve this. 
It is not the kind of thing that comes before Congress, and it 
is not particularly good other than fodder for the press. So as 
we continue to retain jurisdiction and oversight, bear in mind 
we will be looking at every action of all of you. We want you 
to do everything you can to live up to your oaths.
    And Chairman, I would hope that as you work with Chief of 
Staff Daley, that you recognize that this is an extraordinary 
opportunity if the President retains confidence in you to 
change dramatically how these four men and women believe you 
are working. And I think certainly at least one Commissioner 
has said very well that he believes that change can happen, and 
the others, to a certain extent, did too.
    We're not your CEO. We are ultimately America, the American 
stockholders, Board of Directors and we will assert our rights 
and obligations if we do not see this resolved, and that's 
something that I'm positive will come from both sides of the 
aisle. So I thank you, we are going to break briefly for a 
second panel. We thank you for your testimony and we stand in 
recess.
    [Recess.]
    Chairman Issa. The committee will come to order. I'd now 
like to recognize our second panel of witnesses. Mr. William 
Borchardt, Executive Director of operations at the Nuclear 
Regulatory Commission, and Mr. Steven Burns is general counsel 
for the NRC.
    Chairman Issa. Gentlemen, I know you have been sitting 
through the first panel so pursuant to our rules, would you 
please rise to take the oath?
    Do you solemnly swear or affirm that the testimony you will 
give will be the truth, the whole truth, and nothing but the 
truth?
    Let the record indicate both answered in the affirmative, 
and Mr. Borchardt, is that correct pronunciation?
    Mr. Borchardt. Yes, sir.
    Chairman Issa. One of my best friends is Bob Borchardt 
formerly of New York of Recoton company, so it is the only 
reason I didn't mess your name up. You're recognized to give 
your opening statement.


                 STATEMENT OF WILLIAM BORCHARDT

    Mr. Borchardt. Thank you very much, Chairman Issa, good 
afternoon. As you mentioned, my name is Bill Borchardt, I have 
served as the executive director for operations at the NRC 
since May of 2008. I began my NRC career in 1983 after serving 
5 years in the U.S. submarine force. As the executive director 
for operations, I am the senior staff member responsible for 
the operational and administrative functions necessary for the 
day-to-day operations of the agency. This includes supervising 
and coordinating agency operational activities, policy proposal 
development, and implementation of Commission policy 
directives. Approximately 3,500 of the 4,000 staff members of 
the NRC report through the EDO.
    The staff of the NRC is fully committed to the agency's 
mission to protect public health and safety as well as 
protection of the environment. This is a 24-7 responsibility. 
Accomplishment of this mission requires the dedicated and 
interdependent efforts of every employee. For more than 35 
years, NRC experts have had a singular focus on our safety and 
security mission. We strive to be tough, but fair and reliable 
regulators, and to be an organization that continues to learn 
from experience.
    Learning from operating experience is frequently resulted 
in the imposition of new regulatory requirements and 
corresponding safety improvements at the facilities we 
regulate, as well as improvements to our own operations. The 
events at Fukushima are providing to us today a new opportunity 
to learn from operating experience and to improve our 
regulatory structure. Our safety and security mission has been 
and will always remain our top priorities.
    In addition to a clear mission, I believe any organization 
involved in nuclear safety, especially the safety regulator 
must have a robust safety culture, the NRC staff safety culture 
embodies the principles of an open and collaborative work 
environment, the agency's principles of good regulation which 
are independence, openness, sufficiency, clarity, and 
reliability, and a commitment to live by a set of 
organizational values, and at the NRC, they integrity, service, 
openness, commitment, cooperation, excellence and respect.
    These principles are critically important to the success of 
our safety mission. They continue to guide our interactions 
within the staff, and with our regulated community, and with 
all other stakeholders. They are part of the staff's daily life 
at the NRC and promote mutual support, open communications, and 
a fully-engaged staff. I believe an open and collaborative work 
environment encourages interdependence among the staff and 
promotes open discussion to help us make good decisions and 
provide the Commission with our best recommendations, and to 
best serve the American public.
    The NRC has a long tradition of valuing diversity of ideas, 
different opinions and questioning the status quo. In fact, we 
have a number of formal and informal programs that encourage 
the staff to raise differing views so that those views can be 
addressed in an open and transparent manner. We have 
demonstrated the differences of opinion within the staff can be 
addressed in a respectful and constructive manner. These 
differing views are frequently provided to the Commission for 
their consideration. It is through this open discussion that we 
most effectively execute our nuclear safety responsibilities.
    The staff is responsible for keeping the Commission 
completely and currently informed on all relevant matters. We 
accomplish this through a series of formal and informal 
mechanisms, including memoranda to the Commission, Commission 
papers, status reports and oral briefings. The Commission 
provides direction to the staff through budget decisions and 
staff memoranda.
    You have already been made aware of the results of the 2011 
Office of Personnel Management Federal employees viewpoint 
survey. This survey measured employees' perceptions of whether 
and to what extent their organizations have the type of 
characteristics typically associated with high-performing 
successful organizations. The fact that the NRC ranked first in 
all four categories examined by the survey is a result of the 
collective efforts of the entire staff to adhere to the 
principles that I just mentioned.
    I am extremely proud of the skilled and contentious staff 
with whom I work at the NRC. They have maintained their focus 
on our mission, and the fundamentals essential to doing an 
excellent job. It is because of our dedicated technical and 
administrative staff that we are the preeminent nuclear 
regulator in the world. And through our combined efforts, we 
strive to serve the American public in the best way we can. 
This concludes my testimony, thank you.
    Chairman Issa. Thank you.
    Chairman Issa. Mr. Burns.

                   STATEMENT OF STEPHEN BURNS

    Mr. Burns. Thank you, Chairman Issa, Ranking Member 
Cummings. I'm pleased to be here before you today as the 
committee examines the management structure of the Nuclear 
Regulatory Commission. As general counsel, I supervise the 
staff of approximately 110 people. My office reports to the 
full Commission and provides a full range of legal services, 
including counsel and representation to both the Commission and 
to the offices that report to the Commission or NRC chairman, 
and to the offices that report to Mr. Borchardt the executive 
director for operations, often referred to as the NRC staff.
    As general counsel, I'm responsible for providing legal 
counsel to the chairman and the other Commissioners as well as 
the senior agency staff. I often interact with the chairman and 
with the other Commissioners, and I strive to be fully 
responsive to the needs of all Commissioners in carrying out 
these responsibilities.
    I've been a career employee with the NRC since 1978. I 
began my legal career as an attorney in what was then called 
the Office of Executive Legal Director where my initial duties 
primarily involved enforcement and oversight.
    I then served as a legal assistant and then executive 
assistant to vice admiral retired Kenneth M. Carr, who is a 
Commissioner and then later chairman of the agency from 1989 to 
1991. Upon conclusion of Chairman Carr's term, I became the 
director of the Commission's Office of Appellate Adjudication, 
the office that drafts the Commission's adjudicatory orders. 
Subsequently, I served for more than a decade as the agency's 
deputy general counsel where my responsibilities included 
overseeing legal representation of the staff and NRC 
administrative proceedings.
    In April 2009, former Chairman Klein initiated my 
appointment to serve as general counsel, which was subsequently 
approved by the Commission. These diverse positions have given 
me substantial understanding of the legal framework governing 
Commission operations, particularly the Atomic Energy Act, the 
Energy Reorganization Act of 1974, and the Reorganization Plan 
Number 1 of 1980.
    The Energy Reorganization Act, of course, establishes the 
Commission and with respect to its members, provides that each 
shall have equal responsibility and authority in all decisions 
and actions of the Commission, shall have full access to 
information relating to the performance of the duties or 
responsibilities, and shall have one vote.
    The chairman is granted particular duties as the official 
spokesperson of the agency, and as the principal executive 
officer with respect to the agency's executive and 
administrative functions and as reflected in the reorganization 
plan.
    In carrying out these duties, the Energy Reorganization Act 
instructs the chairman to see that the faithful execution of 
the policies and decisions of the Commission and that he shall 
be governed by the general policies of the Commission and by 
such regulatory decisions, findings and determinations as the 
Commission may be, by law, be authorized to make.
    As I have advised the Commission, the NRC's enabling 
legislation reflects that the structure of the agency is framed 
around two core principles, the rule of the majority, and the 
delegation of executive leadership to the chairman, which 
includes carrying out the Commission's policies. In providing 
legal advice and counsel to the Commission, I'm ever mindful of 
these principles and believe they were intended to work in 
harmony to ensure the effective operation of the NRC. I'd be 
pleased to answer any questions that the committee may have.
    Chairman Issa. Thank you, and I will recognize myself for 
the first round for 5 minutes. Mr. Borchardt, the--earlier 
testimony, I'm going to follow up on that quickly, have you 
ever been asked to withhold, limit, edit any information given 
to the other four Commissioners that the chairman has?
    Mr. Borchardt. There have been Commission papers and some 
budget proposal documents that have been altered under the 
chairman's direction, yes, sir.
    Chairman Issa. Were those alterations in detail, made 
available so that the Commissioners could understand that or 
were they withheld?
    Mr. Borchardt. The original staff proposal you're asking 
about?
    Chairman Issa. Yes, sir.
    Mr. Borchardt. Eventually I believe it was made available 
to the Commission.
    Chairman Issa. Eventually doesn't quite get it. Were they 
initially denied?
    Mr. Borchardt. Some of these documents were draft documents 
that the chairman's office had seen and provided direction on 
how the final document should be prepared.
    Chairman Issa. So the chairman spoon feeds the 
Commissioners what he wants them to see, is that maybe a little 
excess, but basically a direction?
    Mr. Borchardt. I would describe it as the chairman 
influences the information and the timing of the information 
that is provided to the Commission on occasion.
    Chairman Issa. So he lied to us, he told us that he never 
did that, he told us he didn't withhold information and he said 
they had full and complete, although he used some interesting 
words a couple of times, but I held him back and you were both 
here, to make sure that he said that. But you're telling me 
here today is that the Commissioners, the four Commissioners do 
not have equal and unfettered access to the same information, 
even though they are asked to make decisions based on the 
information they receive; is that correct?
    Mr. Borchardt. I would say the chairman influences the 
timing of the information that's provided.
    Chairman Issa. Oh, so he knows about it sooner and they 
know about it when he's ready for them to know about it.
    Mr. Borchardt. On occasion, yes.
    Chairman Issa. Okay. Is that open and collaborative? Is 
that consistent with the 3,500 people that you fall under you 
and the way things work?
    Mr. Borchardt. It is not a practice we use within the 
staff, no, sir.
    Chairman Issa. And there's been allegations of what under 
the definition that the Federal Government uses of 
intimidation, harassment--intimidation and a hostile 
environment existed at the NRC. In one or more cases, has that 
been exhibited by the chairman?
    Mr. Borchardt. Yes, sir.
    Chairman Issa. But he doesn't have--never mind, I won't go 
into it, he doesn't have anything to apologize. Mr. Burns, you 
did a very good job in your opening statement of explaining 
that for whatever reason, Congress gave incredible authority to 
ignore the other four Commissioners to the chairman, right?
    Mr. Burns. I am sorry, Mr. Chairman. What?
    Chairman Issa. That the powers, the executive powers are 
virtually everything for the chairman. You know, that is 
basically what you said in your opening statement.
    Mr. Burns. I don't think that is what I said. I said that 
there are two principles at play. The one principle, majority 
rules; and the other one, that executive leadership has been 
focused through the reorganization plan in the chairman. Now, 
in doing that----
    Chairman Issa. But executive leadership in a normal company 
is anything that the majority of the board thinks is wrong by 
the executive is, in fact, second-guessable by the board. In 
this case, you are saying that is not the case.
    Mr. Burns. I don't believe I said that at all. And if I----
    Chairman Issa. Well, but you are the legal definer. If 
three of the Commissioners think the chairman is dead-wrong in 
administration, executive, or other activities--in this case, 
four of them think he is wrong on many occasions--shouldn't 
that, in fact, be determinative of his behavior? Or are you 
saying that he has the authority to ignore them in his dealing 
with ordering staff, you know, some 4,000 staff around?
    Mr. Burns. I am not going to comment on the chairman's 
behavior----
    Chairman Issa. No, no, I am not asking for the behavior. I 
am asking about authority.
    Mr. Burns. With respect to his authority, a majority of the 
Commission, particularly in policy matters, adjudications, and 
rulemaking, set the policy of the agency, and the chairman is 
honor-bound to carry that out.
    With respect to administrative matters, for the most part 
administrative matters are delegated to the chairman. There are 
some specific examples or exceptions within the reorg plan. 
Appointments, for example Mr. Borchardt's appointment and my 
appointment, he initiates but the full Commission approves----
    Chairman Issa. Okay. So there are a few times in which he 
has to go to his board. The rest of the time, he runs the show.
    Mr. Burns. And that is the contemplation under the 
reorganization plan.
    Chairman Issa. Okay.
    Clearly, today, we were mostly talking about his management 
failures, at least relative to the 4,000 staff members and the 
four commissioners. But one very quick question.
    I heard Mr. Tierney read verbatim the law that allowed this 
emergency powers. Was Japan under the regulation of this 
Commission?
    Mr. Burns. No. And I don't think----
    Chairman Issa. So you issued an opinion that everything he 
did was legal and within his jurisdiction. And I heard the 
verbatim--now, I am a layperson, so I want to be told why I 
didn't understand. But I heard, I think, the complete phrase of 
authority. And we are talking about halfway around the world a 
nuclear power plant and, actually, several reactors were in 
distress, and he asserted unilateral rights to completely 
dismiss any participation by his Commission.
    That power, under what was read to us today--and I am not 
an expert on it; you are--that power was limited to the 102 
sites in the U.S. Nowhere did it appear--and I guess some other 
sites--but nowhere did it appear to have anything to do with a 
foreign, sovereign nation and their reactors, did it? The 
intent of that statute, that right.
    Mr. Burns. Mr. Chairman, the interpretation I gave to that 
statute and to those provisions in the reorg plan were not that 
the chairman was suddenly the nuclear regulator of the country 
of Japan. What it had to do with is that the question I was 
asked during the course of the accident was, when the emergency 
center was stood up and the chairman was in the ops center and 
the United States Nuclear Regulatory Commission was asked for 
information regarding recommendations to protect U.S. citizens 
in Japan and U.S. servicemen through the Ambassador and through 
the administration, he asked me--what the question was, was it 
within his purview to communicate that information? I gave him 
the opinion that, yes, it was. This was not an usurpation of 
all the powers----
    Chairman Issa. Okay. And my time has long expired. I wanted 
to just make clear that you gave him an opinion, so it is not 
him asserting some unilateral--but you are telling him that 
that phrase, that part of the law, gave him the authority to 
lock out his four Commissioners?
    That wasn't the main reason--today we were talking about 
management. So it is important for me to understand that, 
because that action, which was not the focus of this hearing, 
if there is a mistake, it is yours, not his.
    Mr. Burns. Yes. And there was no mistake on my part.
    Chairman Issa. Well, I think there was a big damn mistake, 
but that is----
    Mr. Burns. Well, I am sorry, Mr. Chairman, there was not.
    Chairman Issa. But that is a judgment call, not a legal 
call. And----
    Mr. Burns. That is right. That is a legal judgment call. In 
my legal judgment, given the intention of the President of the 
United States in 1980 in issuing the plan and providing for the 
concentration under emergency circumstances of power into the 
chairman, that the chairman acted reasonably.
    I have had no Commissioner tell me that my view is wrong. I 
followed the opinion of my predecessor advising Chairman 
Meserve after 9/11, when there was not a particular threat to a 
U.S. power plant or facility.
    Chairman Issa. Thank you.
    The ranking member is recognized.
    Mr. Cummings. Thank you very much. May I have 8 minutes, 
Mr. Chairman? Thank you very much.
    Following the Fukushima disaster, the NRC took a number of 
actions related to the emergency, including ensuring that two 
U.S. west coast nuclear plants would remain safe from possible 
tsunami effects and standing up an emergency operations center 
at the NRC to monitor events as they unfolded in Japan. The 
operations center remained in monitoring mode to assist Japan 
and the multitude of U.S. citizens in that country and to deal 
with the ongoing emergency at the Fukushima plant.
    Mr. Burns, as the NRC general counsel, you wrote a memo on 
March 17, 2011, and your memo concludes that the chairman had 
the legal authority under his emergency powers to issue the 
press release that provided the 50-mile protective guidance for 
United States residents and other interests in Japan.
    In that memo, you said this, and I quote: ``The chairman's 
actions fit within his authorities under Section 3 of the 
reorganization plan, under which all authorities vested in the 
Commission pertaining to an emergency are transferred to the 
chairman.''
    Mr. Burns, is that correct?
    Mr. Burns. That is correct. That is in my memorandum.
    Mr. Cummings. And can you tell us simply how the chairman's 
actions were proper under current law?
    Mr. Burns. Yes. And, Ranking Member Cummings, the other 
things I would emphasize, it was not only, I think, a 
reasonable representation of the emergency powers, but as the 
official spokesperson of the agency, he had information that 
was developed by the staff and communicated that. So even if 
you disagree with respect to emergency powers, I think as a 
spokesman he could do that.
    The point I made--and I actually think you read the quote 
from President Carter during the testimony of the 
Commissioners--is that the purpose of the plan in Section 3 was 
to focus the emergency response responsibility into a single 
person, the chairman. That was a finding coming out of the 
Three Mile Island accident.
    And that is--and looking at that and, again, looking at the 
memo of my predecessor to Chairman Meserve, I felt, though it 
was a novel question, which I acknowledge in the memo, I 
thought that was a reasonable judgment.
    Mr. Cummings. And you were using your legal judgment, your 
legal expertise; is that correct?
    Mr. Burns. Yes, I was, sir.
    Mr. Cummings. Some have alleged that the chairman should 
not have used his emergency authorities to respond to the 
Fukushima crisis because the incident did not--and I think this 
is what Chairman Issa was going to--did not involve a U.S. 
nuclear facility or materials licensed or regulated by the 
Commission.
    But in your memo you obviously disagree. You said that you 
do not view the language of the reorganization act of 1980 as--
and I quote, I am quoting you--``limiting the scope of the 
chairman's emergency response authority only to incidents 
involving particular NRC-licensed facilities,'' end of quote. 
Is that right?
    Mr. Burns. That is correct.
    Mr. Cummings. And in your memo you pointed to an opinion by 
the former NRC general counsel following the attacks on 9/11. 
Here is what you said, and I quote: ``I know that former 
General Counsel Cyr gave a similar opinion in the context of an 
agency response to the 9/11/2001 terrorist attacks in 
determining that the absence of an actual event or damage to a 
nuclear facility or materials did not limit the chairman's 
authority to exercise his emergency powers.''
    Mr. Burns, can you explain what that 2001 opinion said and 
why it is useful for understanding how the chairman exercised 
his authorities during the Fukushima crisis?
    Mr. Burns. Certainly.
    Briefly stated, after the 9/11 attacks, the NRC again stood 
up its emergency center I think primarily in a monitoring mode 
or an enhanced monitoring mode. There was, again, no specific 
threat to a particular U.S. facility. It kept in that operation 
for a few months.
    And the chairman, Meserve at the time, I think some of his 
Commissioners wondered, well, how long is this going to go on? 
And I think he asked the general counsel, General Counsel Cyr, 
to give an opinion. And her opinion--again, she said, we 
understand what--you know, in terms of the text in the reorg 
plans. But, she said, looking at it again at President Carter's 
transmittal statement and looking at the general purpose is to 
focus the emergency response responsibility into a single 
official, that that was a reasonable action on her part to do--
I mean, it was a reasonable action on the part of Chairman 
Meserve in the 9/11 context to do. And I adapted that.
    And, again, you know, I concede, it was a novel question.
    Mr. Cummings. Now, Mr. Burns, it has been alleged that the 
chairman, in violation of his statutory responsibilities, does 
not keep the Commission properly informed. In your transcribed 
interview with the committee staff, however, you stated that 
the individual Commissioners have a wide variety of ways to get 
information they need to do their jobs. For example, any 
Commissioner can ask agency staff for information, and each 
Commissioner holds regular meetings with senior NRC staff. Is 
that correct?
    Mr. Burns. That is correct.
    Mr. Cummings. In your interview, you said this, and I 
quote: ``The Commission can ask for information within its 
functions, and it is not restricted to asking for the 
information that the chairman thinks that the Commissioners 
ought to have. They could ask for anything within those 
functions. There is some balancing, again, about potential 
burdens and all that, but essentially that is a fairly powerful 
tool,'' end of quote.
    Is it fair to say that each Commissioner has tools at his 
or her disposal to keep themselves informed?
    Mr. Burns. I think it is. And I think that is what both the 
Energy Reorganization Act and the reorganization plan provide.
    Could I make----
    Mr. Cummings. Please do.
    Mr. Burns. Just one footnote I would add to that, Mr. 
Cummings, and that is this. In matters involving the budget, 
the chairman is responsible for budget presentation and budget 
development. And so, actually, the view that we have is that, 
in terms of the timing, there is some influence in terms of the 
timing. It doesn't mean that the Commission can't get the 
information, but it is not realtime because, again, the 
contemplation of the reorg plan is that the chairman presents a 
budget. Once it is presented, then information is fair game to 
the Commissioner.
    Mr. Cummings. Now, did you also say that--did you inform 
committee staff during your transcribed interview that you were 
unaware of any instances in which the chairman withheld 
information or failed to inform the Commission, in breach of 
his statutory responsibilities?
    Mr. Burns. Yes, I am not aware of any.
    Mr. Cummings. All right. Is it fair to say that each 
Commissioner--Mr. Burns, can you describe to the committee what 
you believe the statute requires of the chairman in terms of 
keeping the Commission informed?
    Mr. Burns. I think the reorganization plan in Section 2, 
2(c) or 2(d), talks about the chairman's responsibility and the 
EDO through the chairman. It defines or outlines that 
responsibility. And with respect to that, that can be 
implemented through the Commission's internal procedures, in 
terms of information flow and the like. And as you describe 
from my interview, is that Commissioners can ask staff for 
information.
    The last thing I would note is that the statute also 
provides, in effect, a safety valve; that if any employee or 
officer of the Commission believes that there is critical 
safety information or security information the Commission 
should be aware of, it can communicate with the Commission.
    Mr. Cummings. Finally, do you believe that individual 
Commissioners have any obligation to seek out information they 
believe they need?
    Mr. Burns. Well, I think that each Commissioner has to 
decide for themselves what information they need in carrying 
out their responsibilities. And I think just as a matter of 
their functioning, they have an obligation and, I think, an 
ability to do that.
    Mr. Cummings. Thank you.
    Mr. Platts. [presiding.] I thank the gentleman.
    I yield myself 5 minutes for the purpose of questions.
    I thank both of you for your service at the NRC and your 
testimony here today.
    Mr. Borchardt, the issue of information-sharing certainly 
is critical for the Commission doing its job well; if the 
Commission is going to take a vote, that they all have the 
ability to make informed decisions and all have the same 
information.
    In your opinion as the senior staff member, do you feel 
that the staff feels comfortable sharing information? Because 
it has been made a point that all of the Commissioners have the 
right to ask for information. But do the staff subordinate to 
you feel comfortable in sharing information with the other 
Commissioners if it is contrary to a view they know that the 
chairman holds?
    Mr. Borchardt. Well, I think there has been a longstanding 
practice that the staff is responsive to individual 
Commissioners' requests for information through oral 
conversations. That continues.
    There is a higher degree of apprehension, though, today 
under the current environment, as the first panel discussed, 
that has, at least for me, a concern that there could possibly 
be some reluctance to provide information as timely and as 
candidly.
    Mr. Platts. And with that, you reference in response to a 
request for information. And I guess if there is not a request 
for information from a Commissioner but staff has information 
they think is relevant, do they feel like they, one, have to 
wait to be asked about it and even then are hesitant? Or do 
they, you know, feel free to share what they know, even if it 
has not been asked, because it is relevant to something that is 
going to come before the Commission?
    Mr. Borchardt. Well, I think, you know, it is informative 
to separate these discussions into two different types.
    There is an informal conversation that occurs between an 
individual Commissioner and perhaps an individual office 
director that reports to me. That is a casual conversation that 
has a free flow of information. Normally, both parties would 
raise topics of interest.
    The other methods of communication are far more formal. 
Those are documents that are typically signed out either by 
myself or by the office director to provide the status of an 
activity or perhaps to raise a potential policy issue to the 
Commission. Those discussions are much more formalized into 
written correspondence.
    Mr. Platts. And in both there is a chilling aspect today 
because of the current environment of the staff sharing 
information, whether it is informal or formal?
    Mr. Borchardt. There is a change in practice, I think, that 
goes to the discussion from the earlier panel. And that is, the 
historical practice, as I understood it through my 28 years at 
the NRC, is that if the staff felt that there was information 
that would be of interest to the Commission, that the staff 
would fault to the side of providing that information in some 
kind of a written document so the Commission could decide 
whether or not it was of interest to them and whether or not 
they wanted to adopt it as a policy issue for their 
consideration.
    Now what has happened more on occasion is that the 
chairman's office has made a decision as to the timing of when 
that information would go forward. So that was a fairly 
significant, from the staff's perspective, change in practice.
    Mr. Platts. And, clearly, then, an intent to control the 
information that is provided to the other Commissioners?
    Mr. Borchardt. Or to control, as the chairman has described 
it in the past, control the agenda of the Commission so that he 
could monitor the Commission's activities. And by Commission, I 
mean the five Commissioners that were at the first panel, not 
the staff, technical staff's activities.
    Mr. Platts. And when you say monitor the Commission, do you 
think there is precedent for the chairman having the 
appropriateness of monitoring the efforts of the other 
Commissioners versus just setting the agenda?
    Mr. Borchardt. Well, I think perhaps my choice of words, 
saying ``monitoring,'' was not quite right. What I meant to say 
is probably better to use your words, which was to set the 
agenda, to have the Commission agree as to what topics would be 
raised, when the Commission would issue directions to the staff 
on which topics.
    At any given time, we may have quite a few documents and 
decisions before the Commission that we are waiting for 
guidance on.
    Mr. Platts. In your own capacity, have you been reprimanded 
or in any way had action taken against you by the chairman for 
sharing information with other Commission members?
    Mr. Borchardt. Well, I would put myself in the same 
category as a number of the other senior managers within the 
staff that have, you know, received, you know, a form of verbal 
direction and verbal counseling that, at least in my view, was 
not consistent with the NRC values that we endeavor to perform 
our own behavior with.
    Mr. Platts. And that was where your intent was to share 
what you thought was relevant information with the other 
Commissioners and the chairman took exception to that?
    Mr. Borchardt. Yes, I mean, that would be an example. 
Another would be just on the development of a staff position, a 
recommendation that we would provide to the Commission.
    Mr. Platts. In your role as senior staff, would you 
tolerate that type of conduct from a subordinate of yours?
    Mr. Borchardt. No. And in my testimony that is the point I 
was trying to make, that the organizational values that we 
endeavor to live by that I think are the reason the NRC has 
been such a strong regulator and such a good place to work for 
our employees, that that kind of behavior is inconsistent with 
what we expect from the staff.
    Mr. Platts. Thank you again for your testimony.
    My time has expired. I yield to the chairman.
    Chairman Issa. [Presiding.] I thank the gentleman.
    I thank you both for being here today. As often happens 
with a second panel, people burn themselves on the first panel. 
I would ask if both of you would be willing to take additional 
questions from Members in writing.
    Mr. Borchardt. Yes, sir.
    Mr. Burns. Yes, sir.
    Chairman Issa. Thank you.
    Then, without exception, that will be allowed for--Mr. 
Cummings, can we leave the record open for 2 weeks to allow 
Members to put in questions and have them respond?
    Okay. Without objection, the record will be held for that 
purpose for 2 weeks.
    Chairman Issa. I thank you again for your testimony.
    And we stand adjourned on this hearing.
    And I would just announce that we have votes imminent, so 
immediately following this set of votes, we will begin the 
minority hearing.
    Thank you. We stand adjourned.
    [Whereupon, at 1:15 p.m., the committee was adjourned.]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
